<html>
<title> - NOMINATIONS OF FREDERICK D. GREGORY TO BE DEPUTY ADMINISTRATOR OF THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION; KATHIE L. OLSEN AND RICHARD M. RUSSELL TO BE ASSOCIATE DIRECTORS OF THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY</title>
<body><pre>[Senate Hearing 107-1071]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1071



 NOMINATIONS OF FREDERICK D. GREGORY TO BE DEPUTY ADMINISTRATOR OF THE 
  NATIONAL AERONAUTICS AND SPACE ADMINISTRATION; KATHIE L. OLSEN AND 
 RICHARD M. RUSSELL TO BE ASSOCIATE DIRECTORS OF THE OFFICE OF SCIENCE 
                         AND TECHNOLOGY POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
87-749                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page

Hearing held on July 18, 2002....................................     1
Statement of Senator Allen.......................................     4
Statement of Senator McCain......................................     3
    Prepared statement...........................................     3
Statement of Senator Nelson......................................     1
Statement of Senator Wyden.......................................     2

                               Witnesses

Gregory, Frederick D., nominee to be Deputy Administrator of the 
  National Aeronautics and Space Administration..................     6
    Prepared statement...........................................     7
    Biographical information.....................................     9
Olsen, Kathie L., Ph.D., nominee to be an Associate Director of 
  the Office of Science and Technology Policy....................    21
    Prepared statement...........................................    23
    Biographical information.....................................    26
Russell, Richard M., nominee to be an Associate Director of the 
  Office of Science and Technology Policy........................    13
    Prepared statement...........................................    15
    Biographical information.....................................    17

                                Appendix

Burns, Hon. Conrad, U.S. Senator from Montana, prepared statement    49
Response to written questions submitted by Hon. Ernest F. 
  Hollings to 
  Frederick D. Gregory...........................................    50
Response to written questions submitted by Hon. John McCain to 
  Kathie L. Olsen................................................    56
Response to written questions submitted by Hon. John McCain to 
  Richard M. Russell.............................................    52
Response to written questions submitted by Hon. Ron Wyden to 
  Kathie L. Olsen................................................    60

 
 NOMINATIONS OF FREDERICK D. GREGORY TO BE DEPUTY ADMINISTRATOR OF THE 
                    NATIONAL AERONAUTICS AND SPACE 
ADMINISTRATION; KATHIE L. OLSEN AND RICHARD M. RUSSELL TO BE ASSOCIATE 
        DIRECTORS OF THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY

                              ----------                              


                        THURSDAY, JULY 18, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 

SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
presiding.
    Senator Wyden. The hearing will come to order. Senator 
Nelson seems to be on a tight time schedule, and he'd like to 
make some comments and introduce one of the nominees, and we'll 
recognize him for that purpose.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, thank you, Mr. Chairman, and it is my 
pleasure to be here on behalf of Fred Gregory.
    NASA is this wonderful little $15-billion-a-year agency 
that encapsulates the hopes and the dreams and the desires of 
the American people. When NASA succeeds, the American people 
cheer.
    What child, what student, can you not find a way to 
interest them in science and mathematics and technology by 
talking to them about the space program? That is just one of 
the reasons that it's so very important that we have the right 
kind of management for NASA.
    I believe that the right person for Deputy Administrator, 
the number-two position in the agency, is Fred Gregory. He has 
vast experience with NASA, having come to NASA as a--and 
retiring--Colonel in the United States Air Force after he had 
had a career logging 7,000 hours in more than 50 types of 
aircraft, including 550 combat missions in Vietnam.
    Fred came to NASA as a pilot astronaut, and I can tell you 
that they pick only the best of the best. These folks have 
incredible experience as pilots, most of them military test 
pilots. In that capacity, Fred has flown three missions, one in 
the right seat as pilot, and two in the left seat as commander.
    After his active-duty astronaut office days, then he went 
into the Administration. He served as Associate Administrator 
for the Office of Space Flight, in an acting capacity, and then 
he was selected permanently in that position in February of 
this year. He was responsible in that position of management in 
overseeing the International Space Station, Space Shuttle 
operations, space access using expendable launch vehicles for 
commercial launch services, space communications, and advanced 
programs.
    Before that, he was an Associate Administrator of the 
Office of Safety and Mission Assurance. In this capacity, he 
was responsible for assuring the safety, reliability, quality, 
and mission assurance of all NASA programs. That post is 
particularly important to NASA after awful mistakes on the 
Apollo launch pad caused a fire that killed three astronauts. 
Mistakes occurred again in January of 1986, which resulted in 
the Challenger disaster and a renewed committment to safety.
    Now, you've heard me, Mr. Chairman, from this very position 
on this very Committee, keep saying over and over that we have 
got to find the resources in NASA to do the safety upgrades in 
the Space Shuttle, because we should never get to a position 
where we compromise safety.
    And so it would give me--and I bring to the Committee for 
its consideration--a great deal of assurance of having someone 
like Fred as the Deputy Administrator so that, as attuned as he 
is, not only to the astronaut corps, but as experienced as he 
is having been the head of safety for NASA, it is a very, very 
important component of how NASA ought to be managed these days.
    So, Mr. Chairman, I bring to you an astronaut, a test 
pilot, a manager of flight safety programs, and launch support 
operations. He is a graduate from the Air Force Academy. He has 
a Master's Degree. I could list all of the medals that he has. 
Needless to say, they are numerous. And he has my unqualified 
support. He's a good man. He's a great patriot. I'm proud to 
call him my friend.
    Thank you.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. I thank my colleague and appreciate his 
comments.
    Today, the Committee is going to consider the nominations 
of Fred Gregory to be Deputy Administrator of NASA, and Kathie 
Olsen and Richard Russell to be Associate Directors in the 
White House Office of Science and Technology Policy. We've 
worked very well. In particular, we address the three nominees 
with your prospective bosses, Sean O'Keefe, John Marburger, and 
we're glad that all of you are here.
    Mr. Gregory, as Senator Nelson has noted, is currently the 
Associate Administrator for NASA's Office of Space Flight. In 
that capacity, he's responsible for overseeing the management 
of the International Space Station and Space Shuttle 
operations.
    I know that Mr. Gregory feels strongly about carrying out 
the work of Administrator O'Keefe, and that's very welcome, and 
we're going to be asking you some questions today in particular 
about how the agency is going to get its financial house in 
order so it can pursue its scientific vision. It is not going 
to be able to capture the scientific dreams and hopes of the 
American people if the finances are in such chaos. We've got to 
get that turned around, and we'll be anxious to hear your views 
on that.
    We're pleased to have Dr. Olsen here. Among her other many 
distinguished qualifications, she's got roots in Oregon and 
Hosford Grade School, Cleveland High School in Southeast 
Portland, and we're very glad that you are here and look 
forward to your remarks.
    In addition to your tenure as a Fellow in the office of 
Senator Burns, and he spoke glowingly as well, we're pleased 
that you're going to be a nominee for one of the top science 
jobs in government.
    Next week, the Subcommittee on Science, Technology and 
Space is going to hold a hearing on the disgraceful situation 
with respect to the shortage of women in the hard sciences in 
this country, getting degrees, and some of the problems, some 
of the barriers that women have faced in terms of getting ahead 
in these vital fields. Dr. Olsen, we hope that you'll bring to 
your office a special passion to getting more young women to 
continue studies in the hard sciences.
    Finally, Mr. Russell is very familiar to this Committee. 
He's been at OSTP for much of the Administration, spent the 
large part of his career in the House of Representatives, and 
we're pleased that you're here.
    We know you're going to be involved in a host of issues, 
the two of you that will be Associate Directors of OSTP on 
matters that are before the Committee, such as climate change 
and homeland security, we're pleased to have a chance to 
discuss these issues with you.
    I'm going to let my colleagues give their opening 
statements, and then we hope that each of you will recognize 
your families that are here, because I see some awfully proud 
people sitting behind you, and we want you to have a chance to 
recognize them.
    First, let me recognize the Ranking Minority Member of the 
Committee, Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I will put my statement into the record, 
Mr. Chairman, thank you.
    [The prepared statement of Hon. John McCain follows.]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    Mr. Chairman, I thank you for calling this hearing today.
    I congratulate the nominees and thank them for their continued 
interest in, and commitment to, public service.
    Each of the nominees have had impressive careers in public service. 
Mr. Fred Gregory has been nominated as the Deputy Administrator of the 
National Aeronautics and Space Administration (NASA). During his 
career, he has been a helicopter pilot in combat, an Air Force test 
pilot, a NASA astronaut, a NASA Administrator for Safety and Mission 
Assurance, and the Associate Administrator for Space Flight.
    Dr. Kathie Olsen and Mr. Richard Russell have been nominated for 
positions as Associate Directors of the Office of Science and 
Technology Policy (OSTP). Both have worked in the science and 
technology policy arena for many years here in Washington. Dr. Olsen 
has held senior management positions at the National Science Foundation 
and NASA, including as Chief Scientist of NASA. Mr. Russell has worked 
for several years with the House Science Committee, most recently as 
Deputy Chief of Staff, and has been actively involved in science and 
technology legislation before the Congress.
    During Mr. Sean O'Keefe's confirmation hearing to be NASA 
Administrator, we spoke about the reforms that must be made to restore 
the full credibility of NASA. I would like to re-emphasize the need for 
complete and accurate information, accurate cost estimates, and proper 
program management controls. These are essential to restoring 
confidence in NASA.
    The recent Research Maximization and Prioritization (REMAP) Task 
Force of the NASA Advisory Council report gave us an update of the 
effects of various program design changes on the research capability of 
the International Space Station (ISS). Most interesting is their 
recommendation that ``if enhancements to ISS beyond `U.S. Core 
Complete' are not anticipated, NASA should cease to characterize the 
ISS as a science driven program.''
    Congress was sold on the Space Station because of its research 
capability. But if the Station cannot meet its original intent after we 
have spent over $20 billion of taxpayers funds, then we have a very 
serious problem. Congress and the Administration must decide whether or 
not the research capability originally envisioned is worth the 
significant additional costs to taxpayers.
    The management challenges do not end at the Space Station. A 
grounded Shuttle fleet continues to cause great concern for the 
continuation of the program. Aeronautical research, financial 
management reform, and an aging workforce also must be addressed.
    NASA also has a major investment in the U.S. Global Change Research 
Program, an inter-agency climate change research program. Of the $1.7 
billion per year invested by the government, NASA provides 
approximately $1.2 billion. To reap the benefits of its investment in 
the program, the Office of Science and Technology Policy (OSTP) must 
ensure that the scientific research results are properly considered as 
part of the Administration's policy development on climate change.
    Our science and technology policy continues to be a major issue for 
the nation. OSTP plays an important role in the formulation of this 
policy by advising the President and coordinating the Federal 
Government's research and development efforts. Science and technology 
policy is the underpinning of much of our economic growth and plays a 
vital role in homeland security and national defense.
    I urge each of our nominees to work to ensure that our nation's 
investment in science and technlolgy is wise, and that the product of 
this investment is wisely applied.
    Again, Mr. Chairman, I thank you for calling this hearing and look 
forward to hearing from the nominees.

    Senator Wyden. All right.
    Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    My main purpose here is I want to introduce Mr. Russell. I 
do want to say that all three of these individuals in this 
panel seem eminently qualified. And Colonel Gregory, thank you 
for your great service.
    What you'll hear from me most of the time is, ``Remember 
the aeronautics aspect of NASA.'' And I know by your record 
that you were once at Langley. And so while you may be 
concerned about the Space Station, let us not forget the 
importance of research and development and making sure our 
country stays in the lead, or at least be competitive with the 
Europeans and the Japanese, as far as research in aeronautics. 
And I know that Chairman Wyden and I have had hearings in our 
Subcommittee referencing that.
    But, Mr. Chairman, my main purpose here is to share with 
you my pleasure in the nomination of Mr. Richard Russell, as 
nominated by the President, to be Associate Director of the 
Office of Science and Technology Policy. His wife, Lynley, is 
here, holding little George Wolverton there, who's reading now, 
as opposed to voting for his father. And I know his parents are 
here, as well, Ambassador and Mrs. Russell. Lynley's father, 
his father-in-law, Dr. Ogilvie, is here and his aunt, Mrs. 
Sloan is here, as well, and we welcome you all here, backing up 
Richard.
    Just so you all know, Mr. Russell is a resident of the 
Commonwealth of Virginia, calling Fairfax County his home. He's 
a son of a career foreign service officer, who gained the rank 
of Ambassador before retiring. Mr. Russell did travel the world 
extensively growing up himself, but, showing great judgment, 
always returned to Virginia.
    I'm pleased that we're going to have an individual with his 
technological expertise as one of the leaders in the Office of 
Science and Technology Policy. Virginia is one of the fastest 
growing technology communities, as is Oregon, so we share those 
similarities.
    I think that as you, Mr. Chairman, and I have worked on NET 
Guard, and hopefully we'll get that through very shortly, 
there's an understanding that much of what we need to do in 
homeland security can be performed with the adaptation and the 
implementation of good ideas that are already out there in the 
private sector and adapt them to our needs in law enforcement 
and cyber-security and transportation and elsewhere.
    Now, as the White House officer responsible for giving 
advice on these matters of science and technology, I think that 
Mr. Russell is going to play a very important role in setting 
these Federal policies that'll facilitate the continued growth 
and implementation of technology, not just from Virginia, but 
obviously from all over our country.
    His qualifications are significant. Prior to the 
President's nominating him to this post, Mr. Russell served as 
the Chief of Staff of OSTP. He also joined OSTP from the House 
Committee on Science, which was a really great Committee in 
those days with Congressman Walker.
    And during his 6 years on the Committee, he rose through 
the ranks from Professional Staff to Staff Director of the 
Technology Subcommittee, later to Deputy Chief of Staff for the 
Full Committee. In those capacities, Mr. Russell worked on a 
broad array of legislation and policies impacting technology 
development, including technology workforce issues, computer 
security research, Y2K and technology transfer. Much of what's 
going to need to be done in the area of cyber-security, I 
think, will need to be analyzed in some of the ways we analyzed 
Y2K compliance and the capability of achieving that once the 
year 2000 came, the capability of systems to meet that change 
in the date. The same needs to be done as standards in 
determining whether or not agencies are secure from cyber-
attacks.
    I can't think of a better addition, Mr. Chairman, to this 
important office than Mr. Russell. He has a wonderful record. 
And, in fact, the American Association of Engineering 
Societies, whose representation has over a million engineers 
nationwide, said this, and I quote: ``His leadership on 
information technology, research and development, and on other 
issues makes us confident that Mr. Russell is the right man for 
the job. He shares our mission of using technology, be it from 
the private or public sector, to make our country safer and our 
economy more robust.''
    The President made a fine choice in Mr. Russell. We look 
forward to working with you, and I hope our Committee approves 
him in on the floor as quickly as possible.
    I thank you, Mr. Chairman.
    Senator Wyden. Very good. Let's meet the fan club. Let's 
meet the Gregory fan club.
    Mr. Gregory. If I might, starting on my far right, is my 
wife, Barbara; my grand-daughter, Caitlyn; her brother and my 
grandson, Scott; my mother, Nora; on the back row--I mean, the 
row behind that--my daughter-in-law, Natalie; my son, Fred--we 
call him Junior; you can do that, if you like--and another 
member of my family, Sue Fen, who has been working with me for 
10 years.
    Senator Wyden. Basketball team and reserves. We welcome 
you.
    The Russell caucus, let's meet them.
    Mr. Russell. As they've been introduced once, starting on 
the far end is my wife, Lynley, and she's holding George, who 
seems very content eating a book--someday it'll be reading, 
hopefully--and her father, Gary Ogilvie; my aunt, Sandy Sloan; 
my mother, Sally Russell; my father, Theodore Russell; and Dr. 
Marburger, the extended member of our family.
    Senator Wyden. Welcome. We're glad to have Dr. Marburger, 
as well.
    And the Olsens.
    Dr. Olsen. My brother is here, Dr. Curtis Olsen. And I'd 
also like to say that of the Office of National Science 
Foundation, the Office of Integrated Systems, is here, and the 
Chief Scientist's Office of NASA is here, which is my extended 
family.
    Senator Wyden. Very good. Welcome to all of you. We're 
going to make your prepared statements a part of the record in 
their entirety. If you could just summarize your principal 
concerns, and then we're going to begin the questions with 
Senator McCain, because I know he's on a tight schedule.
    So why don't we begin with you, Mr. Gregory?

    STATEMENT OF FREDERICK D. GREGORY, NOMINEE TO BE DEPUTY 
      ADMINISTRATOR OF THE NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Mr. Gregory. Thank you very much. First of all, I'd like to 
thank Senator Nelson for those very kind words and to 
acknowledge to Senator Allen that I began my career at NASA at 
Langley on a 2-year assignment that has never ended. It began 
in 1974.
    Mr. Chairman and the distinguished Members of the 
Committee, I'm honored to come before this Committee this 
afternoon as the President's nominee as the Deputy 
Administrator of the National Aeronautics and Space 
Administration. If confirmed, I will assure you that I will 
enter the job fully committed and dedicated to continuing 
NASA's preeminence in space and strengthening the confidence of 
this Committee, the Congress, the American people, and the 
world in NASA's ability to carry out exciting and important 
space missions safely and reliably and with credible fiscal and 
operational management. Across the agency's entire portfolio, 
as we demonstrate daily, safety remains the agency's number-one 
priority.
    My life has been richly blessed, and I've had the 
opportunity to participate in many areas of government service, 
both in the military and in the civil arena. As a child growing 
up in Washington DC, never in my wildest dreams did I ever 
consider that I would have had the extraordinary opportunities 
that I have experienced to date. Watching my father interact 
with NASA's legends, such as Keith Glennan, NASA's first 
Administrator in the 1950s and 1960s, having a friend and 
mentor in General Benjamin O. Davis, Jr., the father of a 
Tuskegee Airman whose funeral I attended yesterday. And now, 
more than 40 years since making that life-changing trip to the 
Air Force Academy after receiving my appointment from 
Congressman, the Reverend Adam Clayton Powell, I look back on a 
very rewarding life as an Air Force officer, an aviator, an 
astronaut, a husband and father, and, most importantly, a 
grandfather of four.
    This nomination affords me the unique and challenging 
opportunity to make a significant difference in the future of 
our Nation's aeronautics and space leadership. Today, we, as a 
country, have a unique chance to reinvigorate a long-held 
position as a leader in aeronautics and space-related science, 
technology, and exploration.
    It is my intent to assist the Administrator in NASA 
leadership to effectively articulate NASA's vision for the 
future, which the American people so richly deserve and expect. 
When we are successful in these efforts, and I know that we 
will be, then I am certain that the President and the Congress 
will provide the necessary resources to achieve that vision--to 
improve life here, to extend life there, and to find life 
beyond.
    I think I know NASA and many of her strengths and 
weaknesses, and I believe that working with the Administrator, 
the Honorable Sean O'Keefe, as we approach the 45th anniversary 
of this great agency, we will continue to build a NASA that we 
can be proud of.
    I look forward to serving President Bush, working with the 
Congress, and providing leadership in NASA as we chart 
America's future in aeronautics and space.
    Mr. Chairman and Members of the Committee, words are 
inadequate to express my excitement in NASA and our country's 
future prospects. The discoveries accomplished that lie ahead 
in the fields of aeronautics and space for the Nation and for 
this world are unlimited. I'm humbled as well as honored by the 
prospect of serving as a NASA Deputy Administrator, if 
confirmed, at this crucial time in our country's history.
    But before I close, I must thank my Mom and Dad for 
allowing me the freedom to roam, but setting the limits that 
kept me in line.
    Thank you for this opportunity to appear before the 
Committee.
    [The prepared statement and biographical information of Mr. 
Gregory follow:]

   Prepared Statement of Frederick D. Gregory, Nominee to be Deputy 
   Administrator of the National Aeronautics and Space Administration

    Mr. Chairman and distinguished Members of this Committee, I am 
honored to come before the Committee this afternoon as the President's 
nominee for Deputy Administrator of the National Aeronautics and Space 
Administration. If confirmed, I will assure you that I would enter the 
job fully committed and dedicated to continuing NASA's preeminence in 
space and strengthening the confidence of this Committee, the Congress, 
the American people, and the world in NASA's ability to carry out 
exciting and important space missions safely, reliably, and credibly in 
fiscal, management and operational terms. And across the Agency's 
entire portfolio, safety remains the Agency's No. 1 priority.
    I am pleased that my mother Nora, wife Barbara, son and daughter-
in-law, Fred and Natalie, and two of our grandkids, Scott and Caitlin, 
are sharing this experience with me today. My life has been richly 
blessed and I have had the opportunity to participate in many areas of 
Government service--in both the military and civilian arenas--
activities of which one could only dream. As a child growing up in 
Washington, DC, never in my wildest dreams did I ever consider that I 
would have had the extraordinary opportunities that I have experienced 
to date. Watching my father interact with NASA legends such as Keith 
Glennan in the 1950s and 1960s. Now, more than 40 years since making 
that life-changing trip to the Academy, I look back on a very rewarding 
life as an Air Force officer, an aviator, an astronaut, and most 
importantly--the grandfather of four.
    This nomination affords me the unique and challenging opportunity 
to make a significant difference in the future of our Nation's 
aeronautics and space leadership. Today, we as a country have a unique 
opportunity to reinvigorate our long held position as the premier 
Nation in the world in the fields of aeronautics and space exploration. 
In the past, we have excelled and charted unexplored courses with such 
feats as: putting humans on the moon and in permanent orbit around the 
Earth; reaching distant planets with research satellites; working to 
make planes safer, quieter, energy efficient, environmentally friendly, 
and less expensive to manufacture, maintain, and operate; launching and 
operating the flagship in NASA's Earth Observing System--Terra--to 
better understand the real ``big picture'' of how the Earth's climate 
operates and how it may be changing; orbiting and maintaining the crown 
jewel of astrophysics research--the Hubble Space Telescope; generating 
new knowledge and creating excitement for Americans of every age; and 
inspiring the next generation of explorers--as only NASA can.
    However, it is not just these headline-making programs that are 
indicative of our world renowned aeronautics and space endeavors. It is 
our people and our facilities that are the critical essence to 
discovery--and I believe we need to place renewed emphasis in these 
areas. It is essential that our blueprint for success align programs, 
infrastructure, and people. These are the basic keys for mission 
sustainability. And they require both vision and investment. On 
September 12, 1962, President Kennedy acknowledged the expense of being 
a leader in space when he recognized the unforeseen benefits to be 
derived by the country--``even though I realize that this is in some 
measure an act of faith and vision, for we do not now know what 
benefits await us.''
    The Nation and the world have been the beneficiaries of the vision, 
leadership, and investment made by previous leaders and visionaries in 
the fields of space as early as 50 years ago and aeronautics almost 100 
years ago. It is our responsibility to pursue those same areas with 
vigor as a legacy for the next 50 to 100 years.
    We have been resting on our past accomplishments and laurels for 
too long--at the dawn of this new millennium it is time for us to 
demonstrate those American traits that have made this country the envy 
of the world--reaching for the stars and making life better for our 
children and grandchildren. It is now time that we reassess the course 
we desire to take as a Nation in the fields of aeronautics and space 
research and technology. NASA is the American spirit. It is an 
expression of our will to explore and to take measured risk. It is the 
future--the future to create technology, to make discoveries from our 
world-class laboratory in space, to tackle aviation's deadliest safety 
issues, to pursue the space frontier through human exploration, to 
maintain a competitive edge in a worldwide economy, to monitor the 
environment from space providing unprecedented insights into our home 
planet, to inspire the next generation of explorers by motivating 
America's youth to pursue careers in science, math, and engineering. I 
believe that NASA represents the very best that America has to offer.
    With the support of this Committee and the Congress as a whole, I 
will have the opportunity to join Administrator O'Keefe in leading NASA 
to a new and even more exciting era of exploration and discovery. The 
challenge of getting NASA's fiscal house in order looms large; however, 
it is not insurmountable. It will require a focused, disciplined, and 
sustained effort throughout the Agency--and I am confident we will 
demonstrate to the Congress and the Administration that we have 
installed viable fiscal and management processes. Restoring our 
credibility is of utmost importance. Our Nation is facing unprecedented 
challenges--in many areas. And as such, the world is changing, and if 
NASA is going to exploit these new opportunities then America's space 
program must also change. As Sean O'Keefe has said, ``Our future 
decisions will be science-driven, not destination-driven. The 
investments we make today must be justified by their contributions to 
the long-range goals of the Agency.'' This is our blueprint for the 
future.
    It is my intention to assist the Administrator and the leadership 
in NASA to effectively articulate NASA's vision for the future, which 
the American people so richly deserve and expect. When we are 
successful in these efforts, and I know we will be, I am certain that 
the President and the Congress will provide the necessary resources to 
achieve that vision--To improve life here, To extend life to there, and 
To find life beyond.
    In the 28 years that I have been working for NASA, I have seen what 
the talented people of the NASA team, both Government, university, and 
industry, can accomplish when given a challenge and the resources to 
explore, to develop new technology, and to foster education--building a 
stronger America. I have also seen the results of trying to do too much 
with too little. I think I know NASA and her strengths and weaknesses. 
And I believe that working with Sean O'Keefe as we approach the 45th 
anniversary of this great Agency, we will continue to build a NASA that 
we can all be proud of. I look forward to serving President Bush, 
working with the Congress, and providing leadership in NASA as we chart 
America's future in Aeronautics and Space.
    Mr. Chairman and Members of the Committee, words are inadequate to 
express my excitement at NASA's and the country's future prospects. The 
discoveries and accomplishments that lie ahead in the fields of 
aeronautics and space for the Nation and the world are limitless. I am 
humbled as well as honored by the prospect of serving as Deputy 
Administrator for NASA at this crucial time in our country's history.
    Thank you for the opportunity to appear before the Committee.

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Frederick Drew Gregory (Nickname used: Fred).
    2. Position to which nominated: NASA Deputy Administrator.
    3. Date of nomination:
    4. Address: Information not released to the public.
    5. Date and place of birth: January 7, 1941, Washington, DC.
    6. Marital status: Married, Barbara Ann (Archer) Gregory.
    7. Name and ages of children: Frederick Drew Gregory, Jr., 37; 
Heather Lynn (Gregory) Skeens, 35.
    8. Education: Anacostia High School, September 1955-June 1958, 
diploma; Amherst College, attended 1958-1959; American University, 
attended 1959-1960; United States Air Force Academy, June 1960-June 
1964, Bachelor of Science granted in June 1964; George Washington 
University, January 1975-August 1977, Master of Science, Information 
Systems, granted in August 1977.
    9. Employment record: U.S. Air Force officer, June 1964-December 
1993; NASA Associate Administrator, Office of Safety and Mission 
Assurance, November 1993-December 2001; NASA Associate Administrator, 
Office of Space Flight, December 2001-present.
    10. Government experience: None.
    11. Business relationships: Howard University, College of 
Engineering, Computer Science and Architecture, Board of Directors; 
Kaiser Permanente, Mid-Atlantic Region, Board of Directors; United 
States Air Force Academy Association of Graduates, Board of Directors.
    12. Memberships: Honorary Board Member--National Capital Area 
Council of Boy Scouts of America; Member--Association of Space 
Explorers, American Institute of Aeronautics and Astronautics, Tuskegee 
Airmen, U.S. Air Force Academy Association of Graduates, U.S. Air Force 
Academy Sabre Society, Wild Rose Shores Community Association.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: Honorary Doctor, University of the District 
of Columbia and College of Aeronautics, LaGuardia Airport; Air Force--
Meritorious Service Medal, Air Force Commendation Medal, 16 Air Medals, 
2 Distinguished Flying Crosses, Legion of Merit, Defense Superior 
Service Medal, Defense Meritorious Service Medal, National Intelligence 
Medal; NASA--3 Space Flight Medals, 2 Outstanding Leadership Medals, 
Distinguished Service Medal; George Washington University, 
Distinguished Graduate Award; the Air Force Association, Ira Eaker 
Fellow.
    15. Published writings: None.
    16. Speeches: I have given several thousand speeches on the subject 
of space flight, risk management, and safety practices. With minor 
exceptions (copies of recent speeches provided), all have been without 
notes or written text.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? The NASA Administrator, Sean O'Keefe, 
referred my name because of my vast experience at NASA in the human 
space flight program, both as an astronaut and in various management 
positions.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? Broad NASA 
experience and management and leadership skills.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? I plan to resign from the Boards of 
Directors of Kaiser Permanente and the Air Force Academy Association of 
Graduates if confirmed.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. L-3 Communications and 
Microsoft. If confirmed, I will not take any official action involving 
these two companies.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None of which I am aware.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None, other than 
my official activities as an Associate Administrator at NASA.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. I will resign from entities if necessary, recuse myself from 
participation in official matters involving parties with which I have 
potential conflicts, divest myself of conflicting holdings, or 
otherwise comply with the advice of the NASA General Counsel to resolve 
any potential conflicts.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. Yes, I was identified as a responsible management official in 
an equal employment opportunity complaint filed by Ms. June E. Ellison 
during my employment at NASA, Agency Docket No. NCN-95-HQs-A016. Ms. 
Ellison alleged that she was subjected to illegal and discriminatory 
retaliation in the form of harassment or threats. The Agency found no 
discrimination had occurred and this decision was affirmed on appeal to 
the Equal Employment Opportunity Commission, Appeal No. 01982308.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. Although not a 
named party, I was the subject of an equal employment opportunity 
complaint, the resolution of which is described in response to 1 above.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? As well as I 
am able.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. NASA 
is not a regulatory agency. Nevertheless, for every NASA policy, 
requirement, or regulation that I initiate or approve, I will ensure 
that it complies with the spirit of the laws passed by Congress by 
vetting these NASA actions through, as a minimum, the General Counsel 
and the Offices of Legislative Affairs and the Inspector General.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. NASA Administrator Sean 
O'Keefe has established a new and very positive mission and vision for 
NASA's future.
    The NASA mission is ``to understand and protect our home planet, 
explore the Universe and search for life, and to inspire the next 
generation of explorers as only NASA can.'' One of the ways of 
accomplishing this mission is to ensure that our youth of today will be 
our explorers of tomorrow. Education is going to play a very important 
role in NASA's new mission. We have unveiled an Educator Mission 
Specialist program which will inspire our young people to be the next 
generation of explorers.
    The new vision for NASA is to ``improve life here, to extend life 
there, to find life beyond.'' NASA is our Nation's No. 1 aeronautics 
and space research and technology organization. In our new vision for 
the Agency, science objectives will direct us. In order to meet these 
goals, we have renewed our commitment to work with the public and 
private sectors and academia, in addition to our renewed commitment to 
fiscal responsibility.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated? I 
hold a Bachelor of Science degree from the United States Air Force 
Academy and a Master's degree in Information Systems from George 
Washington University. This, along with my experience as a helicopter 
pilot in combat, an Air Force Test Pilot, NASA Astronaut, Associate 
Administrator for Safety and Mission Assurance for 9\1/2\ years, and 
most recently as the Associate Administrator for Space Flight, gives me 
a wide range of experience that will guide me in my performance as the 
Deputy Administrator. I also have 30 years of experience as an Air 
Force officer which has given me a great deal of leadership and 
management experience.
    2. Why do you wish to serve in the position for which you have been 
nominated? I would like to be the next Deputy Administrator of NASA 
because it will afford me an opportunity to assist in returning the 
Agency to high morale, fiscal stability, and scientific and 
technological superiority. I will be able to make a contribution, along 
with the entire NASA family, to restore the Agency to its rightful 
place of international prominence and leadership in the field of 
aeronautics and space research and development.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? As the Deputy Administrator, I am committed to 
pursuing the goals established for the Agency by the President and the 
NASA Administrator--e.g., to restore fiscal credibility, to fulfill the 
President's Management Agenda, and to inspire new generations of 
scientists, engineers, and explorers through education.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I am not an expert in all of the 
political aspects of the Agency's dealings at the Senior Management 
level. However, I will work with and learn from the Administrator 
during my tenure as the Deputy Administrator.
    5. Who are the stakeholders in the work of this agency? NASA's 
primary stakeholders are: (1) the American public; (2) Congress; (3) 
the U.S. aerospace industry; (4) American academia (K-post graduate 
school), and (5) our international partners.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 5? I will be 
the key manager within NASA to assure that all of the Agency's senior 
leaders correctly balance the needs of our stakeholders in 
decisionmaking.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? My 
responsibilities as Deputy Administrator of NASA will be to oversee the 
staff functions of Headquarters to include oversight of the Agency's 
management and accounting controls in cooperation with the Chief of 
Staff and the Comptroller.
    (b) What experience do you have in managing a large organization? 
In my position as Associate Administrator for Safety and Mission 
Assurance, I was responsible for the safety of all of NASA programs, 
managing a budget of over $25 million. These programs included Space 
Shuttle operations, the Shuttle-MIR program, the International Space 
Station operations, as well as expendable launch vehicles and aviation 
safety.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. The President's Management Agenda is an 
excellent example of the benefits of setting clear and reachable goals 
and measuring the progress with simple yet meaningful metrics. 
Performance goals give purpose and focus to Agency actions and the need 
to report creates accountability to ensure that the goals are met.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? Congress is responsible for providing the necessary 
oversight to ensure that the funds it appropriates from the Treasury 
are expended in a fiscally sound manner. If an agency continually fails 
to achieve its performance goals, I would expect that agency's 
management to be held accountable for developing a corrective action 
plan and implementing it.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? If confirmed, I should be 
accountable for: (1) raising the morale of NASA employees throughout 
the Agency; (2) bringing NASA fiscal management in line with accepted 
business practices and metrics, and (3) setting forth a measurable and 
attainable set of scientific and technical objectives for the Agency 
over the next 5 years.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I believe in 
participatory leadership where we attempt to ingrain into our employees 
a sense of ownership and personal responsibility for the success or 
failure of the organization while recognizing that the senior leaders 
are ultimately responsible for decisionmaking. I have an open-door 
policy and make sure that I am always accessible to all members of my 
organization. I am interested in their views and ideas for making NASA 
a better place to work. One equal employment opportunity complaint has 
identified me as a responsible management official; both NASA and the 
Equal Employment Opportunity Commission found the complaint without 
merit. It is further described at D.1.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. As an Associate Administrator at 
NASA, I have testified before Congress on several occasions and worked 
closely with our oversight committees. Most recently on April 18, 2002, 
before the Subcommittee on Space and Aeronautics of the House Science 
Committee, I testified about NASA's space program initiatives. As 
Deputy Administrator, my goal will be to maintain a positive, 
productive relationship with the appropriate oversight committees so 
that we are open and cooperative in keeping them thoroughly informed of 
the Agency's goals and accomplishments in carrying out the vision of 
the President and the NASA Administrator.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. As the Deputy Administrator, I will be responsible 
for maintaining continuous contact with the NASA Inspector General to 
insure that we are continually aware of any areas of potential 
violations of law, fiscal waste, or management abuse and, with the 
Inspector General, raise these to the Administrator. I will serve as an 
advisor to the Administrator in developing immediate corrective courses 
of action to remedy all legitimate areas of concern identified by the 
Inspector General.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. Although 
NASA is not a regulatory agency and therefore issues very few 
regulations, we do issue numerous internal policy directives 
implementing Federal law. As Deputy Administrator, I will ensure that 
NASA's processes for developing policy provide adequate opportunities 
for consultation with relevant stakeholders and that the final policies 
are consistent with not only the language of the law but its intent as 
well.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Congress should consider funding the 
International Space Station and Shuttle Programs to the necessary level 
demonstrated by NASA to be justifiable and necessary for the longterm 
health of the science and technology benefit they potentially bring to 
our Nation and our international partners. Congress should also give 
very careful consideration to funding proposed initiatives in 
aeronautics research and development that will assist in maintaining 
the U.S. aerospace industry in a secure international leadership 
position.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation. 
My intent would be to support and advise the NASA Administrator on 
appropriate and prudent allocation of discretionary spending in support 
of the vision and guidance provided to NASA by the President and the 
Administrator. The national priorities necessary to carry out this 
vision and guidance will be developed in an open fashion through 
consultation with the NASA stakeholders.

    Senator Wyden. Mr. Russell.

  STATEMENT OF RICHARD M. RUSSELL, NOMINEE TO BE AN ASSOCIATE 
    DIRECTOR OF THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Mr. Russell. Thank you, Mr. Chairman. It's a great honor 
and a privilege to come before you as the President's nominee 
for Associate Director of the Office of Science and Technology 
Policy.
    As part of the Executive Office of the President, OSTP 
plays a critical role in advising the White House on the 
development and use of technology. If confirmed, I look forward 
to working with this Committee and the rest of Congress on 
issues ranging from nanotechnology to computer security.
    Scientific and technical advances have driven our country's 
prosperity since the birth of our great Nation. Every child is 
aware of the fascination that many of our Founding Fathers held 
for the process of discovery. Benjamin Franklin stated, ``Man 
is a tool-making animal.'' That statement seems a perfect 
summation of his personal drive to innovate. It is a drive 
shared by many great Americans throughout history. From the 
Franklin stove to the Internet, American inventors have 
produced a seemingly endless array of revolutionary tools. Such 
tools have enabled us to win wars, advance freedom and 
democracy, cure disease, reduce hunger, travel further and 
faster, and share virtually limitless amounts of information 
around the world at the speed of light.
    Technological advancements in the field of medicine and 
agriculture have contributed substantially to our Nation's 
wealth and well-being. Biotechnology has increased crop yields 
while reducing the need for pesticides and water, 
simultaneously helping the economy and the environment. 
Similarly, advances in biomedical technologies have enabled us 
to live longer, healthier lives.
    Technology is also a key to our Nation's homeland. It will 
help improve security while enabling the continued flow of 
people and goods across our borders. Technology will help 
secure our critical infrastructures and will help us recover 
from any future attacks.
    The fall in the NASDAQ from its peak in March of 2000 does 
not diminish the fact that technology is having a dramatic and 
positive effect on U.S. productivity and the economy. This 
year, patent filings are expected to total more than 340,000, a 
70-percent increase from 1996. In the last decade, U.S. 
production of computer and office equipment increased twelve-
fold, and the semiconductor production has increased by a 
factor of 20. U.S. exports of aerospace technologies, 
electronics, biotechnology, and software account for almost 30 
percent of total U.S. exports.
    While the U.S. remains the global leader in innovation, we 
cannot rest on our laurels. U.S. exports of technology have 
increased significantly over the last decade. However, imports 
have grown ever faster. That is why it's critical that we not 
only maintain, but also enhance, our Nation's ability to 
innovate.
    OSTP plays a key role in promoting innovation. Through the 
National Science and Technology Council, OSTP coordinates 
government-wide science and technology initiatives, such as the 
Networking Information Technology Research and Development 
Program and the National Nanotechnology Initiative.
    OSTP supports important presidential advisory panels, such 
as the President's Council of Advisors on Science and 
Technology, and the congressionally-chartered Commission on the 
Future of the United States Aerospace Industry.
    I have spent almost a decade-and-a-half working on matters 
of science and technology policy. Working in the House and 
Senate on two congressional Committees, and as a former Chief 
of Staff of OSTP, I have had the opportunity to work on a broad 
range of issues critical to technology policy.
    If confirmed, I look forward to working with Dr. Marburger, 
Congress, and the Administration in promoting science and math 
education, supporting sound research and development budgets, 
championing important policy initiatives, such as making the 
research and experiment tax credit permanent.
    In addition, I will take a strong personal interest in 
policies that will help advance broadband. As the President 
stated on June 13th of this year, ``This country must be 
aggressive about the expansion of broadband.'' To that end, the 
President has championed important economic policies, such as 
accelerated tax depreciation schedules, research and networking 
on computer security, and, with the leadership of Chairman 
Wyden, Senator McCain, and Senator Allen, a moratorium on new 
access fees on the Internet.
    The President has also tasked PCAST to recommend policies 
that will promote the adoption of the high-speed Internet. If 
confirmed, I will work with PCAST and the rest of the 
Administration to advance the President's objectives.
    With the Committee's support and that of the full Senate, I 
look forward to an opportunity to work for OSTP.
    Chairman Wyden, Members of the Committee, thank you again 
for considering my nomination.
    [The prepared statement and biographical information of Mr. 
Russell follow:]

 Prepared Statement of Richard M. Russell, Nominee to be an Associate 
        Director of the Office of Science and Technology Policy

    It is a great honor and privilege to come before you as President 
Bush's nominee for Associate Director for the Office of Science and 
Technology Policy (OSTP). If confirmed, I will serve as OSTP's 
Associate Director for Technology and will work along side my fellow 
nominee and colleague, Dr. Kathie Olsen, who will be responsible for 
OSTP's science division.
    As part of the Executive Office of the President (EOP), OSTP plays 
a critical role in advising the White House on the development and use 
of technology in the United States. If I am confirmed, I look forward 
to working with this Committee and Congress on issues ranging from 
nanotechnology to computer security.
    Under the leadership of OSTP Director John Marburger, the office 
has been realigned to eliminate stovepipes and to allow for the 
seamless sharing of insights and information among all of OSTP's staff. 
This goal has been achieved by reducing the number of associate 
directors from four to two and by establishing an office structure that 
avoids drawing bright lines between science and technology.
    Under the new structure, OSTP will have an associate director for 
each of its two principal components: science and technology. The 
associate directors will answer to the director and will have specific 
line authority over the departments that fall primarily within their 
issue areas.
    If confirmed, I will be charged with the technology portfolio that 
includes three departments: Technology; Telecommunications and 
Information Technology; and Space and Aeronautics. Dr. Olsen will be 
assigned the science portfolio that includes Environment; Life 
Sciences; Physical Sciences and Engineering; and Education and Social 
Sciences. In addition, OSTP, through a joint arrangement with the 
Office of Homeland Security, has a department of Homeland and National 
Security. That department has been operating effectively under the 
direct supervision of Dr. Marburger. The department will continue to 
answer to Dr. Marburger through OSTP's chief of staff.
    While each of the associate directors has responsibility for 
specific departments, we recognize that most important policy issues 
before OSTP have both a scientific and a technical component. The 
office has been structured, therefore, so that either associate 
director can tap into the expertise of any of the departments. For 
issues of particular significance, both associate directors will be 
heavily engaged, as will the chief of staff. In each instance, one of 
the associate directors will be designated the lead.
    Let me give you two examples. Nanotechnology is a priority for the 
Bush Administration and OSTP. This program has components of both basic 
scientific research and applied technology research and development. If 
confirmed, I will have the lead on nanotechnology policy, but, because 
of its significant scientific component, the Physical Science and 
Engineering department will be heavily engaged, as well. The science 
and technology associate directors will jointly chair the National 
Science and Technology Council (NSTC) committee responsible for 
interagency coordination of nanotechnology.
    Homeland security technology provides another good example. OSTP is 
assisting the Office of Homeland Security in coordinating plans to 
deploy new technologies at our Nation's borders to help ensure that we 
positively identify visitors to our country and determine if they have 
overstayed their visas. This goal presents many challenging technology 
development and deployment issues. While the department of Homeland and 
National Security has the lead on this matter, OSTP's department of 
Technology has been directly engaged on the issue. If confirmed, I will 
consider technology deployment at our borders a personal priority.
    The importance of technology and science policy to the economy led 
Dr. Marburger to conclude that OSTP should be linked to the National 
Economic Council (NEC). The associate director for technology will 
fulfill this coordination role with the NEC.
    One cannot overstate the importance of science and technology 
policy to the economy. Scientific and technical advances have driven 
our country's prosperity since the birth of our great Nation. Every 
child is aware of the fascination that many of our founding fathers 
held for the process of discovery. In 1778, Benjamin Franklin stated, 
``Man is a tool-making animal.'' The statement seems a perfect 
summation of his personal drive to innovate. It is a drive shared by 
many great Americans throughout our history.
    From the Franklin stove to the Internet, American inventors have 
produced a seemingly endless array of revolutionary tools. Such tools 
have enabled us to win wars, advance freedom and democracy, cure 
disease, reduce hunger, travel further and faster, and share virtually 
limitless amounts of information around the world at the speed of 
light.
    Technological advancements in the fields of medicine and 
agriculture have contributed substantially to our Nation's wealth and 
well-being. In agriculture, biotechnology has enabled crop yields to 
increase while reducing the need for pesticides and water, 
simultaneously helping the economy and the environment. Agricultural 
biotechnology is a key element in the effort to address world hunger. 
The development of golden rice promises to prevent millions of cases of 
childhood blindness and needless deaths in developing nations. 
Similarly, advances in biomedical technologies have increased the 
quality and length of our lives.
    Technology development and deployment will prove key to our 
Nation's efforts to secure the homeland. It will help improve security 
while enabling the continued flow of people and goods across our 
borders. Technology development and deployment will help secure our 
critical infrastructures and will help us recover from any future 
attack.
    The fall in the NASDAQ from its peak in March of 2000 does not 
diminish the fact that technology is having a substantial, positive 
effect on U.S. productivity and the economy.
    The U.S. remains the leading innovator in the world. This year 
patent filings are expected to total 340,000, a 70 percent increase 
from 1996.\1\ In the last decade, U.S. production of computer and 
office equipment has increased 12-fold and semiconductor and related 
electronic components has increased by a factor of 20.\2\ Further, U.S. 
exports of aerospace technologies, electronics, biotechnologies, and 
software account for almost 30 percent of U.S. exports.\3\
---------------------------------------------------------------------------
    \1\ Patent and Trademark Office, Department of Commerce.
    \2\ Federal Reserve Board, April 1992 to April 2002 comparison.
    \3\ 29 percent in 1999, Science & Engineering Indicators 2002, 
National Science Foundation.
---------------------------------------------------------------------------
    As President George W. Bush stated last month during the 
presentation of the National Medals of Science and Technology: ``We'll 
continue to support science and technology because innovation makes 
America stronger. Innovation helps Americans to live longer, healthier 
and happier lives. Innovation helps our economy grow, and helps people 
find work. Innovation strengthens our national defense and our homeland 
security, and we need a strong national defense and homeland security 
as we fight people who hate America because we're free.''
    While the U.S. remains the global leader in innovation, we cannot 
rest on our laurels. U.S. exports of technology have increased 
substantially over the last 10 years, but imports have grown even 
faster. That is why it is critical that we not only maintain but also 
enhance our Nation's ability to innovate.
    OSTP plays a key role in promoting innovation. Through the NSTC, 
OSTP coordinates governmentwide science and technology initiatives such 
as the Networking and Information Research and Development (NITRD) 
program and the National Nanotechnology Initiative (NNI). OSTP supports 
important Presidential advisory panels such as the President's Council 
of Advisors on Science and Technology (PCAST) and the Congressionally 
chartered Commission on the Future of the U.S. Aerospace Industry.
    I have spent almost a decade and a half working on matters of 
science and technology policy. Working in the House and Senate, on two 
Congressional Committees, and as the former chief of staff of OSTP, I 
have had the opportunity to work on a broad range of issues critical to 
technology policy--ranging from computer security to standard setting, 
modernization of the air traffic control system, and information 
technology research and development.
    If confirmed, I look forward to working with Dr. Marburger, 
Congress, in particular this committee, and the Administration as a 
whole in promoting science and math education, prioritizing critical 
research endeavors such as NNI and NITRD, supporting sound research and 
development budgets, and championing important policy initiatives such 
as making the research and experimentation tax credit permanent.
    In addition, I will take a strong personal interest in policies 
that will help expedite the development and deployment of broadband 
technologies. As the President stated on June 13, 2002, ``This country 
must be aggressive about the expansion of broadband.'' The President 
has championed important economic policies, such as accelerated tax 
depreciation schedules, the moratorium on new access fees on the 
Internet, and research on networking and computer security. The 
President has tasked PCAST to recommend policies that will promote the 
adoption of broadband technologies. If confirmed, I look forward to 
working with PCAST and the rest of the Administration to advance the 
President's stated objective.
    With the Committee's support, and that of the full Senate, I look 
forward to the opportunity to work for OSTP.

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Richard Mather Russell.
    2. Position to which nominated: Associate Director, Office of 
Science and Technology Policy.
    3. Date of nomination: October 11, 2001 (intent to nominate), April 
24, 2002 (sent to Senate).
    4. Address: Office of Science and Technology Policy, Executive 
Office of the President, Washington, DC, 20502.
    5. Date and place of birth: February 5, 1966, Naples, Italy.
    6. Marital status: Married to Lynley Anne Ogilvie.
    7. Names and ages of children: George Woolverton Ogilvie-Russell (6 
months).
    8. Education: Middlesex School, 1984 (High School); Yale 
University, 1988, B.S. Biology.
    9. Employment record: Summer Employee; U.S. Embassy Prague; Prague, 
CZ, Summer 1988; Research Fellow; Conservation Found./World Wildlife 
Fund, Washington, DC; 1988-1989; Legislative Assistant; Congressman 
Curt Weldon, Washington, DC; 1989-1991; Legislative Assistant; Senator 
John Seymour, Washington, DC; 1991-1992; Director/Fed. Relations; 
Assoc. of California Water Agencies; Washington, DC; 1993; Professional 
Staff; U.S. House Comm. on Merchant Marine & Fisheries; Washington, 
DC.; 1993-1995 (Office of Congressman Curt Weldon; Washington, DC; 
Jan.-Feb. 1995); U.S. House of Representatives, Committee on Science; 
Washington, DC; 1995-2001, Professional Staff; 1995-1996 Staff 
Director; Subcommittee on Technology; 1996-1999, Deputy Chief of Staff, 
1999-2001; Executive Office of the President, Office of Science and 
Technology Policy; Washington, DC; Chief of Staff, March-November, 
2001, Consultant; November, 2001-Present.
    10. Government experience: For my government experience, please 
refer to those positions listed in response to Question 9.
    11. Business relationships: None.
    12. Memberships: Former Member of the Westmoreland Square 
Homeowners Association Board of Directors; Former Chairman of Saybook 
College Council (Yale University).
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. I have assisted on a volunteer basis a number of candidates for 
office including, President George W. Bush, Senator George Allen and 
Congressman Curt Weldon. I have never held an official position on an 
election committee.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: Mary Casner Award for Outstanding Service to 
Saybrook College (Yale University), 1988 Research Fellowship, The 
Conservation Foundation/World Wildlife Fund, 1989.
    15. Published writings: In 1993, I wrote an article on likely 
changes to the Safe Drinking Water Act for the Association of 
California Water Agencies newsletter.
    As a Research Fellow for the Conservation Foundation/World Wildlife 
Fund (1988-1989), I contributed to the Successful Communities 
Newsletter. The newsletter was produced by the Conservation Foundation.
    16. Speeches: Statement before the National Academy of Sciences 
Committee on Organization and Management of Research in Astronomy and 
Astrophysics, June 13, 2001 (Attached).
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I believe I was chosen because of my 
considerable background and interest in science and technology policy.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I have 
worked on science and technology related policy since 1989. I have 
spent 10 years working with Congress on a range of S&T issues including 
6 years with the House Science Committee. I have served as Staff 
Director for the Science Committee's Subcommittee on Technology and 
Deputy Chief of Staff for the Committee as a whole. I also served as 
Chief of Staff for OSTP before being nominated by the President.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Not applicable. I have been employed by 
OSTP since March 2001.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. I own stock in the 
following companies: Automatic Data Processing, EMC Corporation, Intel 
Corporation, Merck & Company, Microsoft Corporation, Qualcomm Inc, 
McData Corporation, and Schering Plough Corporation.
    Within 90 days of my confirmation I will divest my holdings in 
Automatic Data Processing, Merck & Company, and Schering Plough 
Corporation. My other holdings are small, and fall below the de minimis 
level for conflicts of interest under Office of Government Ethics 
regulations.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. I have worked as 
congressional staff for both a Member of the House and a Senator. I 
have also worked for two House Committees. In each capacity I worked to 
write and pass as well as defeat numerous bills.
    I also served as director of the Washington office for the 
Association of California Water Agencies. In that capacity, I worked on 
Federal legislative matters that impacted California's municipal and 
agricultural water agencies.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. Through my ethics agreement, I have resolved any potential 
conflicts of interest.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. No legal issues of note.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. N/A. 
The Office of Science and Technology Policy is not a regulatory agency.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. OSTP's continuing mission 
is set out in the National Science and Technology Policy, Organization, 
and Priorities Act of 1976 (Public Law 94-282). It calls for OSTP to: 
``Serve as a source of scientific and technological analysis and 
judgment for the President with respect to major policies, plans, and 
programs of the Federal Government.''
    The Act authorizes OSTP to: Advise the President and others within 
the Executive Office of the President on the impacts of science and 
technology on domestic and international affairs; Lead an interagency 
effort to develop and implement sound science and technology policies 
and budgets; Work with the private sector to ensure Federal investments 
in science and technology contribute to economic prosperity, 
environmental quality, and national security; Build strong partnerships 
among Federal, State, and local governments, other countries, and the 
scientific community; Evaluate the scale, quality, and effectiveness of 
the Federal effort in science and technology.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated. 
Science and technology have been at the heart of my career in policy. 
Before joining OSTP as Chief of Staff in March of 2001, I spent 6 years 
on the staff of the House Science Committee. Most recently, I was 
Deputy Chief of Staff for the Committee. In that position I was exposed 
to and had responsibility for helping to coordinate the Committee's 
policy on virtually all Federal civilian science and technology 
programs. I also continued to be the Committee's chief point of contact 
with the private sector on technology policy. Prior to becoming Deputy 
Chief of Staff, I served as Staff Director for the Committee's 
Subcommittee on Technology. In that position I worked on, and was 
responsible for, all technology issues within the Committee's 
jurisdiction including cyber security, technology transfer, the Federal 
role in setting standards, and information technology research and 
development.
    2. Why do you wish to serve in the position for which you have been 
nominated? I have always been interested in matters of science and 
technology policy. Virtually every aspect of my career to date has 
revolved around science and/or technology policy. Our Nation's ability 
to develop and commercialize new technologies faster than any other 
country in the world has contributed greatly to America's economic 
prosperity. The often cited figure that that the information technology 
sector accounted for nearly a third of U.S. economic growth from 1996 
and 2000, while accounting for only 7 percent of the economy, is just 
the most recent example of how technology impacts the economy. The 
recent downturn in the information technology sector does not change 
the fact that information technology has fundamentally altered the way 
in which we live and do business. I firmly believe that from 
biotechnology to nanotechnology to information technology, the best is 
yet to come.
    From both an economic and a social standpoint, technical innovation 
improves the world we live in. I would like to participate in 
developing and maintaining the policies that help maintain our Nation's 
leadership in innovation.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? My goals mirror those of OSTP's Director to 
ensure: (1) that America's science and technology assets are fully 
available in the Nation's struggle to eliminate terrorism as a threat 
to our national security; (2) that America's science and technology 
enterprise is sustained and nurtured; that education in science math, 
and engineering is strong and available to all Americans; and (3) that 
the Federal Government continues to play its vital partnership role in 
the Nation's science and technology effort.
    Specifically, with respect to technology policy, I hope to inform 
the Administration's decisionmaking process with the technical 
knowledge required to make sound policy decisions that will facilitate 
the development of (1) counter terrorist measures, (2) important 
technological advances such as the roll-out of high speed Internet, and 
(3) increased technology transfer from the Federal Government to the 
private sector and continued private sector investment in R&D.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I believe I have the skills to 
successfully carry out the duties of this position, but no individual 
can be an expert in every technological field. As with all my prior 
assignments requiring a very broad knowledge base, I will rely on my 
expert staff, outside advisory bodies, and the scientific and 
technology communities to leverage my knowledge on individual issues.
    5. Who are the stakeholders in the work of this agency? Technology 
and university communities; Federal research agencies; scientific, 
engineering and technology associations; private and Federal scientists 
and engineers.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10? My role 
would be to reach out to, assess and, as appropriate, integrate the 
ideas and knowledge base of these stakeholders into the 
Administration's policymaking process.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? I will 
assist the OSTP Director, as requested, in meeting the requirements of 
the Federal Managers' Financial Integrity Act of 1982 (Integrity Act) 
which requires every Executive Branch agency to report annually on the 
status of management controls to the President.
    The annual review of management controls allows OSTP the 
opportunity to reassess its mission and procedures to determine whether 
the controls in place are adequate to manage them.
    (b) What experience do you have in managing a large organization? I 
have held a number of management positions. Prior to my nomination, I 
was Chief of Staff of OSTP, and responsible for the day-to-day 
operations of the office, including the management of OSTP's budget and 
staff. As Deputy Chief of Staff of the Science Committee I, along with 
the Chief of Staff, managed the Majority staff. In that position, I was 
responsible for staff performance reviews. As Staff Director of the 
Committee's Technology Subcommittee, I had direct day-to-day 
responsibility for the Subcommittee's Majority staff.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. I support the Government Performance and Results 
Act and its application to research and development programs. That 
being said, research, in particular basic research, is hard to measure. 
Recognizing the inherent difficulty in measuring success, I will work 
with the OSTP Director and my fellow Associate Director to examine 
appropriate criteria for Federal investment in research as laid out in 
the recently released President's Management Agenda.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? Performance matters. I believe that to the extent that 
individual programs or agencies do not meet appropriate performance 
criteria, all the options you have outlined should be considered. 
Careful attention, however, should be paid to why the milestones were 
missed or made. Agencies who are willing to sign-up for stretch-goals 
should not necessarily be penalized for slight underperformance while 
others agencies that propose more easily achievable metrics should not 
automatically get rewarded.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? Provide sound, timely, clear, 
and accurate advice to the Director of OSTP and through him to the 
President and others within the Executive Office of the President on 
topics where technology can have an impact on domestic and 
international affairs, and in areas where Federal action has the 
potential to advance or impede technological progress.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I believe in a 
collaborative working arrangement with my staff. I also believe in 
empowering staff to make decisions and take actions on matters that 
they have been assigned. I believe staff must have a clear 
understanding of their responsibilities and the limits of their 
authority and feel accountable for their actions or inaction. I also 
believe in an open door policy to allow staff to address concerns with 
any policy or management decisions.
    To my knowledge no employee complaints have been brought against 
me.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. As a former Committee staff member, 
I have had a close and personal relationship with Congressional 
Committees. I hope to build on this relationship if I am confirmed.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The Executive Office of the President does not have 
an Inspector General.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. The 
Office of Science and Technology Policy is not a regulatory agency.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I share the Director's support for ensuring 
that science and technology are factored appropriately into all 
relevant legislation. I believe that the Administration and Congress 
have been on the right track with respect to legislation impacting 
technology. Prioritizing education reform, to promote a technologically 
literate society and workforce; increasing funding for basic research, 
to provide the seed corn for future discovery; and incentivising 
private sector research through the research and experimentation tax 
credit, which I believe should be made permanent, are all important 
legislative priorities. If confirmed, I look forward to working with 
the Committee to continue to improve on these important goals.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation. 
Yes. I support expanded use of competitive merit based review processes 
such as peer review to help define funding priorities within scientific 
and technological fields.

    Senator Wyden. Dr. Olsen.

STATEMENT OF KATHIE L. OLSEN, Ph.D., NOMINEE TO BE AN ASSOCIATE 
    DIRECTOR OF THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Dr. Olsen. Members of the Committee, Senator Wyden, as you 
noted, I grew up in Portland, and I went to Cleveland High 
School. I bring this to your attention, not because it was in 
your House district, but because every day I entered school 
through a door that had the engraved statement, ``What you are 
to be, you are now becoming.''
    I thought about that statement a lot throughout the years. 
I was one of only two girls in my science class in a class of 
over 400 students, and one of three in my advanced math class, 
senior class, but there were four in senior math my junior 
year.
    One thing was clear to me each day when I entered the door 
at Cleveland High School was whatever I was becoming, it was 
clearly not a scientist, because I hated science in high 
school. It was actually the start of my sophomore year of 
college when the only course--and I do mean the only course--
that I could fit into my schedule was general biology. I'm here 
today, because, along with physiological psychology, it became 
my favorite class. And I believe it was because the professors 
were outstanding teachers and mentors. I knew then that I was 
becoming a neuroscientist. And, indeed, I earned my Ph.D. in 4 
years, did a 1-year postdoctoral fellow at Harvard Medical 
School and started my academic career at SUNY-Stony Brook with 
NIH grants to support my research program.
    A few years later, Dr. Alan Leshner, who was then at the 
National Science Foundation, but now is the head of AAAS, 
called to see whether I would consider the possibility of 
becoming a visiting scientist to oversee some behavioral 
neuroscience programs. By accepting, I could maintain my lab at 
SUNY-Stony Brook, I could carry out a research project at NIH 
using incredible computer equipment that would be impossible in 
my own lab, and also gain experience in managing grants 
programs. I was beckoned to Washington.
    The experience opened my eyes to the service in the 
government, because, within a short time, I realized that I 
could do more at NSF to promote and enhance research and 
education, to support the careers of beginning scientists, 
women, and under-represented minorities than I could ever 
accomplish in my entire career as a laboratory scientist.
    Vannever Bush's statement in 1945 said that ``scientific 
progress is one essential key to our security as a Nation to 
our better health, to more jobs, to a higher standard of 
living, and to our cultural progress.'' It still holds true 
today. And it's for these reasons that we must continue to make 
the right investments in science and technology funding, 
promote partnerships between government, academia, and 
industry, strengthen our Nation's research infrastructure, and 
develop education programs and opportunities that excite, 
engage, enlist, and train the next generation of U.S. 
scientists and engineers. It is for these reasons that I wish 
to serve in the position for which I've been nominated.
    Chairman Wyden and Members of the Committee, it's a 
privilege and an honor to appear before you today as the 
President's nominee to be the Associate Director for Science in 
the Office of Science and Technology Policy.
    I'd like to briefly highlight three issues that I believe 
are critically important to sustain our Nation's leadership in 
research development. A balanced R&D portfolio, a strong 
science and technology infrastructure, and education. If I'm 
confirmed, in my role as Associate Director of the Office of 
Science and Technology Policy, I am committed to continuing 
OSTP's coordination of a broad and balanced Federal research 
program.
    As a neuroscientist, I'm very aware that my field has 
prospered not only by the increased support from NIH, but 
through advances in computer science, physics, chemistry, and 
engineering. More money, however, doesn't necessarily translate 
into more results or scientific or technological breakthroughs 
and advances. It's important to prioritize our science and 
technology investments, especially with respect to potential 
scientific and education opportunities to maximize the return 
on the taxpayer's dollar.
    The second issue, which isn't very exciting, is our aging 
research infrastructure at our Federal laboratories and our 
college and universities. As NASA's Chief Scientist, I spent 
days of discussion on this very issue. I also chaired an NSF 
panel reviewing grants to renovate research laboratories at 
colleges and universities. We need to recognize that the state-
of-the-art instrumentation and modernization of infrastructure 
are enablers of the research enterprise and, therefore, play a 
vital role in our science and technology policy.
    Finally, an immediate challenge is science education. 
Science education is vital for ensuring a public understanding 
of math and science issues for our citizens. We need to ensure 
that all Americans, whether the go to school in Two Dot, 
Montana--if Senator Burns was here, he could tell you where Two 
Dot, Montana is, or Prairie City, Oregon, or Boston, 
Massachusetts--have a strong science and math understanding. 
This is even more important today, since science and technology 
is becoming an intimate part of all our daily lives.
    But science education also needs to be the driver to 
excite, enlist, and train the science and technology workforce 
needed to sustain our Nation's leadership and innovation in the 
21st century. Recently, concerns have been expressed by our R&D 
industries, our Federal science agencies, about the number of 
U.S. students majoring in math, science, and engineering. And 
for even a longer time--and you pointed this out in your 
statement--we're concerned about the under-representation and 
under-utilization of women and minorities in many fields of 
science.
    If I'm confirmed, I look forward to working on these issues 
and others that contribute to a strong and robust science and 
technology policy. In closing, I'd like to say those words over 
the door at Cleveland High School are still appropriate, for 
we're always changing, evolving, and adapting. But the one 
thing that is constant is my commitment to the advancement of 
science, research, and education and also welcoming new 
challenges and opportunities consistent with this goal.
    Thank you again for your consideration.
    [The prepared statement and biographical information of Dr. 
Olsen follow:]

    Prepared Statement of Kathie L. Olsen, Ph.D., Nominee to be an 
   Associate Director of the Office of Science and Technology Policy

    Mr. Chairman and Members of the Committee, it is a privilege and an 
honor to appear before you today as the President's nominee to be the 
Associate Director for Science of the Office of Science and Technology 
Policy (OSTP). If I am confirmed, I will have the honor of serving the 
President, his science advisor, Dr. John Marburger, and of working with 
you and your fellow Members of Congress to ensure that our strong 
national policy, which continues America's leadership in research and 
development, provides the underpinning of our investments in science 
and technology.
    I believe that everyone in this room would agree with the 1945 
statement by Vannevar Bush, author of the report titled ``The Endless 
Frontier'' which led to the establishment of the National Science 
Foundation. He said: ``Scientific progress is one essential key to our 
security as a Nation, to our better health, to more jobs, to a higher 
standard of living, and to our cultural progress.'' These words hold 
true today. Indeed in an October 8, 2001 New York Times letter to the 
editor, Dr. Leon M. Lederman, Director Emeritus of Fermilab and a 1998 
Nobel Laureate in Physics wrote: ``Support of basic research offers a 
double-whammy of a solid payback to the Treasury of between 30 percent 
and 60 percent per year (after a waiting period of 5 to 10 years), as 
well as an array of new knowledge and technologies that create wealth, 
add to human health and longevity, and help fulfill human potential.''
    It is for these reasons that we must continue to make the right 
investments in science and technology (S&T) funding; promote 
partnerships between government, academia, and industry; strengthen our 
Nation's research infrastructure; and develop education programs and 
opportunities that excite, engage, enlist, and train the next 
generation of U.S. scientists and engineers. It is for these reasons 
that I wish to serve in the position for which I have been nominated.
    If I am confirmed as Associate Director for Science, I will work 
closely together with Dr. Marburger and the Associate Director for 
Technology to achieve these goals.
    OSTP has two primary responsibilities: 1. To advise the President 
on S&T; and 2. To provide leadership and coordination for our 
government's role in the national S&T enterprise.
    Towards this end, we must ensure that our S&T portfolio is 
responsive to Presidential and Congressional intent, that our cross-
agency activities are well coordinated, and that our research and 
development (R&D) investments reflect our priorities and are 
efficiently used.
    If I am confirmed, in my role as Associate Director for Science, I 
am committed to continuing OSTP's coordination of a broad and balanced 
Federal research portfolio that challenges the frontiers of scientific 
knowledge, yet is based on the excellence defined by a robust peer 
review process. This coordination requires extensive communication 
among the Federal science agencies, colleges and universities, 
professional societies, State and local governments, and the private 
sector. OSTP will continue to be instrumental as a liaison and 
facilitator, integrating ideas and advice to help establish our science 
and technology priorities. Dr. Marburger has established a flexible 
organization to provide for better integration across interdisciplinary 
research questions, such as nanoscience, climate change research, and 
genomics, as well as international collaborations where appropriate.
    If I am confirmed, one of my first actions will be to begin to co-
chair National Science and Technology Committees (NSTC), such as the 
Committee on Science, the Committee on Environment and Natural 
Resources, and the Committee on International Science, Engineering, and 
Technology. This committee structure, along with ad hoc working groups 
within the NSTC, has proven to be successful in bringing together all 
relevant science agencies and departments on cross-cutting research and 
education activities that advance our Nation's science and technology 
priorities. As Dr. Marburger noted in his statement when he appeared 
before this Senate Committee on October 9, 2001: ``OSTP has a unique 
position and perspective that enables us to assess the vast sweep of 
scientific endeavors of our various Federal agencies and departments. 
The complexity of this activity, the diversity of its impacts, the 
intensity of its many advocates mask an underlying machinery of the 
scientific enterprise whose parts must work in balance to effect the 
smooth functioning of the whole. Our joint responsibility is to 
identify the crucial parts, evaluate their effectiveness, and ensure 
their continued strength through all the mechanisms available to 
national government.''
    In the FY03 budget, the President has set forward his agenda that 
reflects the change in priorities by focusing on three primary goals: 
winning the war on terrorism, protecting the homeland, and reviving our 
economy. Given the importance, as well as the vital role that science 
plays for our Nation and our lives, the President's research and 
development (R&D) budget is greater than $100 billion--up 8 percent 
overall from last year and representing the largest requested increase 
for R&D in over a decade. There is always a continual need for re-
examining the role and priorities of the Federal S&T basic and applied 
research programs and their interaction with the budget.
    Over the past years, concerns are growing about ensuring a balanced 
research portfolio. Indeed, we all recognize that advances in one 
field, such as medicine, are dependent upon knowledge gained in other 
disciplines. One of my favorite examples as NASA Chief Scientist was to 
tell how the charge-coupled devices in the Hubble Space Telescope that 
convert a distant star's light directly into digital images have been 
adapted to aid in the detection of breast cancer in women. While the 
new technology continues to be refined, it can image breast tissue more 
clearly and efficiently than conventional mammograms. NASA developed a 
joint program with the National Institutes of Health and the Office on 
Women's Health in the Department of Health and Human Services, to use 
this technology to develop digital mammography that detects tumors as 
small as 0.1 mm. More money, however, doesn't necessarily translate 
into more results or scientific and/or technological breakthroughs. It 
is important to prioritize our S&T investments, especially with respect 
to scientific opportunities, to maximize the return.
    Recently, Dr. Marburger along with the Director of the Office of 
Management and Budget issued a memorandum (May 30, 2002) to guide 
Federal agencies toward preparation of their respective FY04 budget. 
The memo states ``The Administration will favor investments in Federal 
R&D programs that sustain and nurture America's S&T enterprise through 
the pursuit of specific agency missions and stewardship of critical 
research fields and their enabling infrastructure . . . Agencies with 
responsibilities for specific fields of science and engineering should 
consider the impact of their research investments on the sustained 
viability of these disciplines for national priorities.'' This 
memorandum sends the message that the priority setting process will 
carefully consider the importance of a well-balanced R&D portfolio.
    Another immediate challenge is our aging research infrastructure at 
our Federal laboratories and colleges and universities. We need to 
recognize that state-of-the-art instrumentation and modernized 
infrastructure are enablers of the research enterprise and, therefore, 
play a vital role in furthering our S&T objectives. The health of our 
research institutions and continued advancement in instrumentations are 
critical variables in sustaining our leadership in S&T. The fiscal year 
2004 Interagency R&D Priority Memorandum also addresses this important 
issue, stating that ``Some agencies operate programs or facilities 
whose capabilities are important to the missions of other agencies as 
well as their own. Stewardship and continued development of these 
facilities and associated instrumentation can serve a range of 
scientific and engineering disciplines. These capabilities consequently 
carry an interagency coordination responsibility and will be given 
special consideration in the budget preparations. OSTP, through the 
NSTC process, will evaluate how best to ensure the availability of 
instrumentation and facilities for priority S&T needs.''
    Finally, an immediate challenge is science education. Science 
education is vital for ensuring a public understanding of math and 
science issues for our citizenry, as well as for developing the strong 
S&T workforce needed to sustain our Nation's leadership and innovation 
in the 21st Century. Growing concerns have been expressed by our R&D 
industries, our Federal laboratories, and our colleges and universities 
about the number of U.S. students majoring in math, science, and 
engineering--especially the under-representation and under-utilization 
of women and minorities in many fields. Congress and the Federal 
Government have recognized this important issue and new programs, such 
as the President's education blueprint ``No Child Left Behind'' and a 
new Math and Science Partnership Initiative have become reality. Our 
Nation is concerned about the shortage of qualified math and science 
teachers, especially in disadvantaged school districts, and has 
developed a student-loan forgiveness program for math and science 
teachers. Our colleges and universities are developing programs to 
introduce students to research and instill an inspiration for discovery 
beginning at the undergraduate level. Congress established the 
Commission on the Advancement of Women and Minorities in Science, 
Engineering and Technology Development (P.L. 105-255, approved October 
14, 1998), in which I served as a Federal representative, that set 
forth recommendations to help build a diverse workforce capable of 
meeting our Nation's S&T workforce challenge. OSTP established a 
``Global Science and Technology Week,'' occurring in early May, to help 
stimulate student interest in S&T. The Federal Government has 
recognized this challenge; and I believe it is important for OSTP to 
strengthen partnerships among Congress, Federal, State and local 
government, school systems, professional societies, academia, and the 
private sector to maintain programs that work, and develop and foster 
new approaches that will ensure a strong and robust science, technology 
and engineering enterprise that represents the talents of all 
Americans.
    In closing, I would like to say that throughout my career, I have 
been committed to the advancement of science, research, and education 
and have always welcomed new challenges and opportunities consistent 
with this goal. I have carried out scientific research supported by 
Federal grants, published research articles, edited a book, organized 
international research conferences, gave numerous scientific 
presentations, and lectured students and integrated their education 
program within my neuroscience research program. I have served on 
Federal research review panels, as well as directed Federal research 
programs within and across scientific disciplines, including at the 
Science and Technology Centers the National Science Foundation. I have 
led and managed research organizations setting scientific and budgetary 
priorities and policies. I have developed and fostered collaborations 
and programs across disciplines and Federal scientific agencies. I have 
gained legislative experience, especially with the Senate Subcommittee 
on Science, Technology and Space as a Brookings Institution Legislative 
Fellow in the office of Senator Conrad Burns. I have given numerous 
presentations at elementary, middle, and high schools. I also serve as 
a mentor.
    I believe this unique combination of education and research 
accomplishments, executive and legislative positions, a record of 
administrative leadership, and knowledge of the challenges facing 
colleges and universities and our government will allow me to 
successfully meet the responsibilities of this important and 
prestigious position.
    Mr. Chairman and Members of the Committee, thank you again for the 
consideration. I enthusiastically look forward to the prospect of 
working with Dr. Marburger and you, listening to your advice and 
direction, to foster a continually strong and vibrant R&D research and 
education portfolio. As Dr. Lederman stated in his New York Times' 
letter to the editor: ``The combination of education and research may 
be the most powerful capability the Nation can nurture in times of 
stress and uncertainty.''

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Kathie Lynn Olsen (Kate).
    2. Position to which nominated: Associate Director of the Office of 
Science and Technology Policy.
    3. Date of nomination: December 5, 2001 (intent to nominate); March 
20, 2002 (sent to Senate).
    4. Address: Office of Science and Technology, Executive Office of 
the President, Washington, DC, 20502.
    5. Date and place of birth: August 3, 1952, Portland, Oregon.
    6. Marital status: Single.
    7. Names and ages of children: None.
    8. Education: Cleveland High School, Portland, OR: 1966-1970, High 
School Diploma; Chatham College, Pittsburgh, PA: 1970-1974, Bachelors 
of Science, Majors: Biology & Psychology; University of California at 
Irvine, Irvine, CA: 1974-1979, Doctor of Philosophy in Neuroscience; 
Harvard Medical School, Boston, MA: 1979-1980, Postdoctoral Fellow.
    9. Employment record: American Honda, Inc., Portland, OR, Warehouse 
Worker 1971-1974 (Summers); State University of New York--Stony Brook, 
Stony Brook, NY, Research Scientist, Long Island Research Institute 
1980-1983; Res. Assistant Professor, Department of Psychiatry & 
Behavioral Science 1982-1985; Assistant Professor, Department of 
Psychiatry & Behavioral Science 1985-1989; National Science Foundation, 
Washington, DC & Arlington, VA, Associate Director, Psychobiology/
Integrative Neural Systems Programs, Directorate for Biological, 
Behavioral & Social Sciences (BBS) July 1984-1986; Director, 
Neuroendocrinology Program (Frog.), BBS Sept. 1988-Dec. 1992; Director, 
Neuroendocrinology Prog., Directorate for Biological Sciences (BIO) 
Dec. 1991-1994; Leader, Neuroscience Cluster, BIO Dec. 1991-Oct. 1993; 
Acting Deputy Director, Integrative Biology and Neuroscience Division, 
BIO Oct. 1993-1995; Special Assistant--Neuroscience, Office of the 
Assistant Director, BIO Oct. 1995-Jan. 1996; Senior Staff Associate, 
Office of Integrative Activities of the Director Dec. 1997-May 1999; 
Office of Senator Conrad Burns of Montana, Washington, DC, Brookings 
Institution LEGIS Fellow Jan. 1996-Oct. 1996; NSF detail Oct. 1996-Nov. 
1997; George Washington University, Washington, DC, Adjunct Associate 
Professor, Department of Microbiology 1989-1992; National Aeronautics 
and Space Administration (NASA) Washington, DC; Chief Scientist, May 
1999-April 2002; Acting Associate Administrator for Biological and 
Physical Research, July 2000-March 2002.
    10. Government experience: Member, Ad hoc NIH Site Visitor, HDMR, 
National Institute of Child Health and Human Development, NIH, 1985; 
Member, U.S. Air Force Centers of Excellence Review Panel, 1986; 
Member, NSF Presidential Young Investigator Panel, 1988; Co-Chair, NSF 
Facilities Competition Panel: Academic Research Infrastructure Program, 
1992-1994; Member, NIH Site Visit Team to Morehouse School of Medicine: 
National Institute of Neurological Disorders and Stroke, 1994; 
Executive Secretary, National Science and Technology Council Health, 
Safety, and Food's Subcommittee on Biomedical, Socio-cultural and 
Behavioral Science R&D, 1996-1997; Co-Chair of NASA Special Panel on 
Space Life Sciences Developmental Biology, 1998-1999; Member, NSF 
Minority Graduate Education Advisory Panel, 1998; Member, Presidential 
Federal-Wide Working Group for United Nations Meeting on Women, 2000; 
Member of Interagency Steering Committee to the Commission of the 
Advancement of Women And Minorities in Science, Engineering, and 
Technology Development ``The Morella Commission'' 1999-2000.
    11. Business relationships: Present Member, External Advisory Board 
for AAAS Science Magazine Next Wave, Washington, DC \1\; Present 
Member, National Advisory Board for Burns Telecommunication Center, 
Montana State University, Bozeman, MT \1\; Present Member and Chair, 
Advisory Board for NSF Science & Technology Center in Behavioral 
Neuroscience, Emory University, Atlanta, GA \1\; Present Member, 
Advisory Board, National Space Science & Technology Center, Huntsville, 
AL \1\; Previous Member, Advisory Board for the School for 
Computational Sciences, George Mason University, Fairfax, VA; Previous 
Consulting Editor for Hormones and Behavior, Editorial Board Member; 
Previous Elected Board Member, Women in Aerospace; Previous Member of 
the Research Initiatives Committee of The Endocrine Society.
---------------------------------------------------------------------------
    \1\ Will resign if confirmed.
---------------------------------------------------------------------------
    12. Memberships: Present Member of the following Professional 
Societies: American Association for the Advancement of Science; 
Behavioral Neuroendocrinology; The Endocrine Society; Women in 
Endocrinology; Society for Neuroscience; Women In Neuroscience; Women 
in Aerospace.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Senator Conrad Burns of 
Montana: $2,500 (five $500 donations in 1997, 1998, 1999, 2000 and 
2001).
    14. Honors and awards: Scholarships & Fellowships: College 
Scholarship with financial package, Chatham College 1970-1974; Graduate 
Traineeships, Dept. of Psychobiology, Univ. California at Irvine 1974-
Jan. 1979; Endocrine Fellow, Harvard Medical School NIH Training Grant 
1979-Jan. 1980; Honorary Degrees: Clarkson University, May 2002, 
Special Recognitions for Outstanding Service or Achievements: 
Scientific Societies: International Behavioral Neuroscience Society 
1998, For important contributions to behavioral neuroscience; Society 
for Behavioral Neuroendocrinology 1998, For outstanding contributions 
to development of research & education initiatives of 
Neuroendocrinology in the field of Neuroendocrinology; Government: 
National Aeronautics and Space Administration, NASA's Outstanding 
Leadership Medal 2001; National Science Foundation, Directors' Superior 
Accomplishment Award 1995, For exceptional Division Program Leadership 
and for service to NSTC; Director's Award of Excellence, 1994, For 
outstanding accomplishments in program management and administration; 
General Workforce System Outstanding Performance Awards, 1990-1998; 
Certificate of Appreciation for Outreach Activities 1992-1995; 
Academia: University of California--Irvine, University of California 
System Citation for Excellence in Teaching 1978; Edward A. Steinhaus 
Memorial Award for Excellence in Teaching 1976; Chatham College, Phi 
Beta Kappa; B.S. degree awarded with honors, 1974; Cornerstone Award 
1999; Barnard College, Barnard Medal of Distinction, 2000, College's 
Most Significant Recognition of Individuals for demonstrated excellence 
in conduct of their lives and careers.
    15. Published writings: Appendix 1 provides a listing of 
publications in professional journals and books in the field of 
neuroscience and biology.
    16. Speeches: Appendix 1 also provides a listing, of selected 
presentations. Appendix 2 includes copies of the overheads used in 
selected presentations.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I presume I was chosen for this nomination 
because of my extensive experience and visibility in the science policy 
and academia areas.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I have 
carried out scientific research supported by Federal grants, published 
research articles, edited a book, organized international research 
conferences, gave numerous ``invited'' scientific presentations, and 
lectured students and integrated their activities within my NIH-
supported neuroscience research program. I have served as director of 
Federal research programs within and across scientific disciplines, 
including the Science and Technology Centers at the National Science 
Foundation.
    I have led and managed research organizations setting scientific 
and budgetary priorities and policies. I have fostered collaborations 
and programs across the Federal scientific agencies. I gained 
legislative experience, especially with the Senate Subcommittee on 
Science, Technology & Space as a Brookings Institution Legis Fellow in 
the Office of Senator Conrad Burns from Montana.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes. I will resign my position at NASA.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? A SES career appointee who receives a Presidential 
appointment is entitled to be reinstated to the SES after the 
Presidential appointment ends if the Presidential appointment was to a 
civil service position outside the SES; there was no break in service 
between the career SES appointment and the Presidential appointment; 
and the executive leaves the Presidential appointment for reasons other 
than misconduct, neglect of duty, or malfeasance. Based on this 
information concerning Presidential Appointments of Career SES members, 
NASA Officials indicated that they would try to find a suitable 
position for me at NASA if, at the end of my OSTP tenure, I decide to 
purse this course. At this time, however, no commitment exists on the 
part of myself or NASA.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No, see above.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. While I foresee no real 
conflict of interest, I hold 400 shares in Intel Corp, an investment 
chosen since it is a company within my home State of Oregon. I also 
hold 147.2 shares in T. Rowe Price Science & Technology Mutual Fund 
that I purchased for $5,000 on 8/12/97 and have not bought or sold this 
fund since the initial purchase. My Intel holdings qualify for the de 
minimis exemption, and the Science and Technology Fund is an ``excepted 
investment fund,'' under Office of Government Ethics regulations. These 
holdings are addressed in my ethics agreement.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. As NASA Chief 
Scientist and Acting Associate Administrator for Biological and 
Physical Research, I meet with relevant staff of House and Senate 
authorizers and appropriators regarding the importance of the NASA 
science programs and also worked with the Office of Management and 
Budget in preparation of the agency's budget. I represented the 
President's budget to these organizations. In addition, as a fellow in 
the Office of Senator Conrad Burns from Montana (Jan. 1996-Nov. 1997) I 
worked on science, technology, space, and education related activities 
as related to his committee assignments and State interests.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. My ethics agreement and SF-278 fully disclose potential 
conflicts of interests and how I will deal with them, if they shall 
arise.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense. No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. Throughout my career, I have been 
committed to the advancement of science, research, and education and 
have always welcomed new challenges and opportunities consistent with 
this goal. I believe that my unique combination of education and 
research accomplishments, executive, and legislative positions, record 
of administrative leadership, and knowledge of the challenges facing 
colleges and universities and our government will allow me to 
successfully meet the responsibilities of this important and 
prestigious position.
    I enthusiastically look forward to working with this Committee to 
ensure that the United States continues to be the world's leader in 
Science.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. The 
Office of Science and Technology Policy is not a regulatory agency.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The Office of Science and 
Technology Policy (OSTP) continuing mission is set out in the National 
Science and Technology Policy, Organization, and Priorities Act of 1976 
(Public Law 94-282). It calls for OSTP to: ``Serve as a source of 
scientific and technological analysis and judgment for the President 
with respect to major policies, plans, and programs of the Federal 
Government.''
    The Act authorizes OSTP to: Advise the President and others within 
the Executive Office of the President on the impacts of science and 
technology on domestic and international affairs; Lead an interagency 
effort to develop and implement sound science and technology policies 
and budgets; Work with the private sector to ensure Federal investments 
in science and technology contribute to economic prosperity, 
environmental quality, and national security; Build strong partnerships 
among Federal, State, and local governments, other countries, and the 
scientific community; Evaluate the scale, quality, and effectiveness of 
the Federal effort in science and technology.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated? As 
Chief Scientist at NASA I serve as the senior scientific advisor to the 
Administrator and my responsibilities include the overall budget 
content of NASA's broad science programs and ensuring that these 
programs are universally regarded as scientifically and technologically 
valid. In this position, I also serve as the principal interface with 
the national and international scientific community. As the Acting 
Associate Administrator for the Biological and Physical Research, I 
directly oversee an Enterprise with over 50 professional and support 
staff and have managerial and supervisory experience. I also served for 
over 10 years at the National Science Foundation in various positions. 
My last position, in the Office of Integrative Activities of the 
Director, I was responsible for the Science and Technology Center 
Program. The Science and Technology Centers support innovation in the 
integrative conduct of research, education and knowledge (technical) 
transfer in all areas of science and engineering supported by NSF. 
Thus, this position enabled me to learn about and understand the 
research questions being addressed in all fields of science and 
engineering and the importance of integration with teaching and 
education. In my various positions, I have had the responsibility of 
serving as both an executive secretary and member of the National 
Science and Technology Council, chairing multi-agency task groups, and 
establishing inter-agency cooperation and grants programs.
    Having served as a Brookings Institution LEGIS Fellow and then a 
NSF detail in the Office of Senator Conrad Burns, I gained valuable 
experience in a wide range of policy issues covered by the Senate 
Subcommittee on Science, Technology, and Space and also worked with 
staff of the appropriation subcommittees.
    Prior to my Federal service, I was a faculty member at a medical 
school of a State university, carried out a peer-reviewed neuroscience 
research supported by the National Institutes of Health, and integrated 
my research program with teaching and education.
    I believe that my unique combination of experience and training in 
academia and in both the Executive and Legislative branches of the 
government prepares me for the challenging responsibilities of this 
position.
    2. Why do you wish to serve in the position for which you have been 
nominated? I strongly believe that scientific research and technology 
is vital to our Nation's future and economy. Science and technology are 
critical for the defense of our Nation, for exploring space, for the 
environment, for the health and well-being of our citizens, and it 
creates new knowledge which becomes the driving force for continued 
economic development and growth. Science and technology is an 
investment that pays off, both financially and socially. I strongly 
believe that the Office of Science and Technology Policy, working with 
Congress and the Federal R&D agencies, serves a vital function in 
ensuring the leadership in science and technology now and for the 
future.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? I will work closely with the Dr. John 
Marburger, Director of the Office of Science and Technology and the 
Associate Director for Technology to carry out the goals that Dr. 
Marburger stated, and which I strongly support, during his confirmation 
hearing. These goals are (1) to ensure that America's science and 
technology assets are fully available in the Nation's struggle to 
eliminate terrorism as a threat to our national security; (2) to ensure 
that America's science and technology enterprise is sustained and 
nurtured, that education in science math, and engineering is strong and 
available to all Americans; and (3) that the Federal Government 
continues to play its vital partnership role in the Nation's science 
and technology effort.
    Specifically, with respect to science policy, I hope to inform the 
Administration's decisionmaking process with the knowledge that will 
enable science to play a strong role in the development of our 
policies, where appropriate, and to achieve our above goals while 
maintaining our core values that have enabled our Nation's R&D success. 
A major trend that we need to reverse now is the shortfall in talented 
individuals with science, engineering, and technical education and 
training.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I believe that I have the skills to 
successfully carry out the duties of the Associate Director for 
Science. Similar to my previous positions that required a very broad 
knowledge base, I will utilize the expertise of my staff, the National 
Science and Technology Committees, advisory groups, and the scientific, 
engineering and technology communities to enhance my expertise and 
knowledge on individual issues.
    5. Who are the stakeholders in the work of this agency? The 
university community, the Federal agencies and their scientists and 
engineers, scientific societies, and the educational community.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10? Working 
with the Director for the Office of Science and Technology Policy, OSTP 
is the steward of their combined interests.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? I will work 
with the Director of the Office of Science and Technology Policy to 
ensure that we meet the requirements of the Federal Managers' Financial 
Integrity Act of 1982 that requires every Executive Branch agency to 
report annually on the status of management controls to the President.
    This annual review of management control allows OSTP the ability to 
reassess its mission and, more importantly, procedures to determine 
whether the appropriate controls are in place.
    (b) What experience do you have in managing a large organization? 
As NASA Chief Scientist, I served as senior advisor to the 
Administrator and my responsibilities included oversight of the overall 
budget content of NASA science programs (approximately $4B budget). I 
participated in all of the key budget councils to help formulate NASA's 
annual budget submission. I also was accountable to the Administrator 
for the scientific and technological validity of the research programs. 
It was necessary to establish a new office and to hire a staff who 
could meet the challenges required to coordinate crossenterprise 
activities, including; both GRPA and developing and fostering new 
research initiatives. One accomplishment was defining and developing of 
NASA's role in biology which led to the establishment of a new research 
enterprise for Biological and Physical Research.
    As the Acting Associate Administrator for the new Biological and 
Physical Research Enterprise, at the same time that I served as Chief 
Scientist, I was responsible for overseeing about 65 professional and 
support/administrative staff with a budget of $360 Million in FY01 that 
increased to over $800 Million in FY02. This also involved coordination 
with NASA Field Centers, JPL, the academic community, professional 
societies, and industry.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Our citizens must be assured that tax dollars 
are being invested in programs that will produce the results that will 
ultimately benefit our lives. While we can all identify science and 
technology advances and results that have truly impacted our health and 
well-being, our defense programs, and our economy, research and 
development performance measures have been difficult to identify on a 
yearly basis, especially on performance measures applied to basic 
research programs. OSTP will continue to work with the Administration 
to examine appropriate criteria for Federal investment in research as 
laid out in the recently released President's Management Agenda.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? I agree with the Director that all options should be 
addressed, but any decision should be made on a case-by-case basis 
taking into consideration the importance of the goal to the agency's 
mission, how often the agency has failed to meet the goal, whether a 
plan is in place to meet the goal in a specific time period and budget 
allocation, etc.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? Provide accurate, sound, 
timely, and clear advice, for which I am accountable to the Director of 
OSTP and others within the Executive Office of the President, on topics 
were science and technology can. have an impact on domestic and 
international affairs, and in areas where the Federal action has the 
potential to advance or impede scientific or technological progress.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Open communication 
with employees at every level within the organization characterizes my 
management philosophy. Thus, I have an open-door policy and have always 
been available to meet with employees at every level, under conditions 
that are clear to them and their supervisors. I establish clear roles, 
responsibilities, and accountabilities for all employees, and expect 
line managers to assume responsibility for every aspect of their work. 
I expect that employees will work independently on specific assignments 
and as a team to accomplish our stated goals. During more than 15 years 
of serving as a direct supervisor and leading teams or offices, I am 
aware of only one official complaint. This was an employment related 
decision that was raised from an individual concerning the entire group 
at NSF that had been responsible for the interview in which the outcome 
was that the individual did not get the position. It was resolved 
satisfactorily.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. Yes. In my position as Chief 
Scientist and Acting Associate Administrator for Biological and 
Physical Research, I meet with relevant staff of House and Senate 
authorizers and appropriators regarding the importance of the science 
programs at NASA and also worked with the Office of Management and 
Budget in preparation of the agency's budget. I represented the 
President's budget to these organizations. In addition, as a fellow in 
the Office of Conrad Burns from Montana (Jan. 1996-Nov. 1997) I worked 
on science, technology, space, and education issues as related to his 
committee assignments and State interests. This included the Senate 
Committee on Commerce, Science and Transportation, its Subcommittee on 
Science, Space and Technology, and the Committee on Appropriations 
(most relevant was his assignment on the Subcommittee for VA, HUD and 
Independent Agencies).
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The Executive Office of the President does not have 
an Inspector General.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. The 
Office of Science and Technology is not a regulatory agency.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Below are three major areas where I believe 
that legislative action is important to maintain our leadership.
    Science and Technology. It is important to ensure that science, 
engineering, and technology are considered in all relevant legislation. 
This includes legislation pertaining to such issues as economic 
competitiveness, volunteerism, energy, national security, public 
health, and education. We need to ensure that our legislation is based 
on the most up-to-date knowledge and/or promotes the further 
development of a balanced and strong science, engineering and 
technology programs.
    Balance and Coordination in the R&D Portfolio. Science and 
technology research and development are interwoven and maintaining the 
U.S. leadership requires balanced support of many diverse fields. For 
example, advances in biomedical research and medical care have depended 
upon instrumentation, advances in computer information and new 
technology developed from research in the physical and engineering 
sciences. A national agenda for health care, education, energy and 
environmental protection, and national security requires coordination 
of programs and balanced funding across disciplines and agencies. I 
believe that we need to ensure that agencies with responsibilities for 
specific fields of science and engineering consider the impact of their 
research investments on the sustained viability of these disciplines 
for national priorities, including development of instrumentation and 
maintenance of facilities or programs.
    Math and Science Education. Education is an important priority of 
our Administration's investment in America's future. Attention needs to 
be given to legislation that ensures both an educated public and the 
development of our future workforce in research and technology. Math 
and science and informal learning in the areas of research and 
technology require significant consideration.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation. 
Yes, I am a strong supporter of merit based/peer review.

    Senator Wyden. Thank you. Very good statement.
    We're going to recognize Senator McCain.
    Senator McCain. Congratulations, Mr. Gregory. You have a 
very tough job ahead of you, particularly in the budgetary 
area. I know that you and Mr. O'Keefe are working very hard on 
that. It's something that we began to address in this Committee 
years ago, and unfortunately the budget has now lurched 
completely out of control.
    Dr. Olsen and Mr. Russell, do you agree or disagree with 
this following statement: ``Long-term observations confirm that 
our climate is now changing at a rapid rate. Over the 20th 
century, the average annual U.S. temperature has risen by 
almost 1 degree Farenheit, (0.6 degrees Celsius), and 
precipitation has increased nationally by 5 to 10 percent, 
mostly due to increases in heavy downpour. These trends are 
most apparent over the past few decades. The science indicates 
that the warming in the 21st century will be significantly 
greater than in the 20th century. Scenarios examined in this 
Assessment, which assume no major interventions to reduce 
continued growth of world greenhouse gas emissions, indicate 
that the temperatures in the U.S. will rise by about 5-9 
degrees Farenheit, (3-5 degrees C), on average, in the next 100 
years, which is more than the projected global increase.''
    That is a statement in the beginning and summary ``Climate 
Change Impacts on the United States: the Potential Consequences 
of Climate Variability and Change,'' the Foundation National 
Assessments Synthesis Team, U.S. Global Change Research 
Program.
    Do you agree or disagree with that statement, Dr. Olsen?
    Dr. Olsen. I just want to state that----
    Senator McCain. I'd like to know if you agree or disagree 
when you begin, because I'd like you to start out by answering 
the question.
    Dr. Olsen. Senator McCain, I think climate change----
    Senator McCain. I would like to know whether you agree or 
disagree with that question, or don't answer the question.
    [No response.]
    Senator McCain. Mr. Russell, do you agree or disagree with 
this summary of the ``Climate Change Impacts on the United 
States'' report?
    Mr. Russell. Senator McCain, I'd love to answer that 
question. I must say----
    Senator McCain. If you're not going to answer the question, 
then don't answer the question. I will oppose both of your 
nominations until we get an answer to a simple, basic question, 
and I'll see if you'll answer----
    Mr. Russell. Senator McCain, may I say one thing just very 
quickly?
    Senator McCain. Yes.
    Mr. Russell. We, at the direction of this Committee, as 
much as every other----
    Senator McCain. I would like you to answer the question 
whether you agree or disagree with that statement. It's a 
pretty straightforward statement, and I would like to know if 
you agree or disagree. If you will not say that, then we'll 
just go on to the next question.
    And it is unusual, by the way, to have witnesses, 
particularly here for confirmation, not to answer a rather 
simple straightforward question.
    Dr. Olsen. Sir?
    Senator McCain. In Dr. Marburger's statement before the 
Committee on July 11th, Dr. Marburger said, and I quote: ``This 
is why reports such as the 2002 Climate Action Report do not 
claim to make predictions about future impacts. That report 
employs `scenarios' that are invented to capture the range of 
results of multiple runs of different climate models with 
different ad hoc input assumptions. The scenarios are then used 
to make `projections,' a word that is carefully defined in an 
important footnote . . . of the report . . . I fear that many 
readers of the Climate Action Report have mistaken its 
`projections' for forecasts.''
    Have you read this report, Mr. Russell?
    Dr. Olsen?
    Mr. Russell. Senator McCain, that's what I was about to 
say. I have not read that report. That's why I cannot answer 
that question.
    Senator McCain. You haven't read the report?
    Mr. Russell. It's not--climate change is not----
    Senator McCain. By the way, the quote I gave you was from 
the ``Climate Change Impacts on the United States,'' not the 
``Climate Change Science: An Analysis of Key Questions,'' and 
it doesn't matter whether you've read it or not; it's a 
straigthforward statement, and I would like to know if you 
agree or disagree.
    Now, have you or Dr. Olsen read this report?
    Dr. Olsen. I have read the report.
    Senator McCain. You've read the report.
    Dr. Olsen. And, Senator McCain----
    Senator McCain. If you've read the report--thank you, I'd 
like to go ahead with the questioning. Now, have you read page 
three of the report, which says, quote: ``By how much will 
temperatures change over the next 100 years and where?'' The 
answer: ``Climate change simulations for the period 1990 to 
2100, based on the IPCC emissions scenarios, yield a globally-
averaged surface temperature increase by the end of the century 
of 1.4 to 5.8 degrees Celsius, (2.5 to 10.4 degrees Farenheit), 
relative to 1990. The wide range of uncertainty in these 
estimates reflects both the different assumptions about future 
concentrations of greenhouse gases and aerosols in the various 
scenarios considered by the IPCC and the differing climate 
sensitivities of various climate models used in the 
simulation.'' Quote: ``The range of climate sensitivities 
implied by these predictions is generally consistent with 
previously reported values.'' Yet Dr. Marburger states that 
this report doesn't make predictions, when clearly, on page 
three, it says, and I quote again: ``The range of climate 
sensitivities implied by these predictions is generally 
consistent with the previous reported values.''
    Did you read that part of the report, Dr. Olsen?
    Dr. Olsen. I have read the report. And what Dr. Marburger 
was referring to was the footnote that was in chapter six of 
that report. In that report, they listed a number of 
projections based on scenarios. And, in that case, if this 
would happen, then this would be the result. They were ``what 
ifs.''
    Senator McCain. Well, let me give you----
    Dr. Olsen. But I would like to go back to your----
    Senator McCain. Well, I'd like to continue. Well, then why 
is it that Dr. Marburger said--and I'm sorry that I had to 
leave the hearing early--``That's why reports such as the 2002 
U.S. Climate Action Report do not claim to make predictions 
about future impacts.'' Maybe he was talking about, in his a 
view, a footnote. But no footnote--but it says it makes a 
prediction.
    Dr. Olsen. There were both predictions and projections 
within that report.
    Senator McCain. But Dr. Marburger says this is why reports 
such as the 2002 U.S. Climate Action Report ``do not claim to 
make predictions about future impacts.'' That's his statement 
given before this Committee.
    Dr. Olsen. I think----
    Senator McCain. I noted with interest that neither you nor 
Mr. Russell, as part of your heavy responsibilities that you 
hope to assume, mentioned anything about climate change. To 
begin----
    Dr. Olsen. I do, actually, in my written statement, but----
    Senator McCain. Well, then you didn't feel it serious 
enough to mention in your oral statement.
    To begin the process within this Administration, the 
President last year--``The changes observed over the last 
several likely mostly due to human activities, but we cannot 
rule out some significant part of these changes are due to a 
reflection of natural variability.''
    Dr. Marburger went on to say, ``With the most powerful 
computers, we can forecast the weather reliably only a few days 
ahead, as you know. How, then, can we hope to predict climatic 
conditions far into the future?''
    Do you believe that we can't predict climatic conditions 
into the future, Dr. Olsen?
    Dr. Olsen. Yes, I do believe that we can predict climatic 
changes in the future. We know right now--and this is the point 
that I want to make--that we are in a warming phase.
    The last interglacial warming phase was about 125,000 years 
ago, and we're in one now right now. We also know, with 
predictions in climate, that we expect that this phase is going 
to last for another 2,000 years.
    Climate change is a very, very serious problem. In that 
case, it is at the attention of the President. The President 
has actually charged the Department of Commerce to set up a 
research agenda for the next 5 years to identify the 
information that we need in these areas such that we can answer 
questions so that we can set our policy. He also charged the 
Department of Energy to come up with a similar short-term 
program, in terms of technology. I think this is very 
important.
    We have a lot of uncertainty, and the question is, yes, we 
are in a warming period. We are in--I can't remember--the 
Holocene Interglacial warming period. But I think one of the 
issues is--and one I'd like to make a point--is that, you know, 
in terms of fossil-fuel emissions and in terms of does it cause 
or does it contribute to global warming, is that if we're--and 
I believe this--that if we were to stop all CO<INF>2</INF> 
emissions tomorrow, our global change would still continue to 
warm naturally, and our sea levels will continue to rise 
naturally until we freshen the North Atlantic enough to switch 
our ocean circulation patterns to the next period.
    The question is I think, one, that climate change is very, 
very important.
    And, back to your first question, I would actually like you 
to put it in writing, because when you read it very quickly--
and I have to admit, I'm quite nervous--I don't have the exact 
numbers and everything in my head to be able to respond. And I 
will respond to that in writing. And I apologize for not 
responding at the first question.
    Thank you.
    Senator McCain. I'm astonished that you couldn't understand 
the paragraph. I'm astonished.
    Dr. Olsen. It was read very quickly with a lot of numbers 
in it, and I'd like to make sure that I'm comfortable with the 
numbers.
    Senator McCain. ``Long-term observations confirm that our 
climate is now changing at a rapid rate. Over the 20th century, 
the average annual U.S. temperature has risen by almost 1 
degree Farenheit, (0.6 degrees Celsius), and precipitation has 
increased nationally by 5 to 10 percent, mostly due to 
increases in heavy downpours. These trends were most apparent 
over the past few decades. The science indicates that the 
warming in the 21st century will be significantly greater than 
in the 20th century. Scenarios examined in this assessment, 
which assume no major interventions to reduce''--which is 
apparently what you countenance--``no major interventions to 
reduce continued growth to world greenhouse gas emissions 
indicate that temperatures in the U.S. will rise by about 5-9 
degrees Farenheit, (3-5 degrees Celsius), on average, in the 
next 100 years, which is more than the projected global 
increase.''
    Dr. Olsen. Where I have a problem is the 3 to 5 degrees 
Farenheit. I mean, I don't know, in terms of that range, in 
terms of whether or not we have enough scientific data right 
now to make that prediction.
    Senator McCain. Well, the National Academy of Sciences can 
and does.
    Mr. Russell, do you wish to answer the question as to 
whether you agree or disagree?
    Mr. Russell. I was just going to say, Senator, climate 
change--I'm not nearly as familiar with climate change as Dr. 
Olsen is. The science of climate change is outside of my 
portfolio. I'm more than happy to do research on it and get 
back to you in writing. I'll be pleased to do that for you.
    Dr. Olsen. And I agree, too, that I would like to look at 
that statement more carefully, and I will respond in writing to 
you, sir.
    Senator McCain. Well, what this is all about is one of the 
more astonishing statements that I've seen before this 
Committee. Over this past several years, we have had a series 
of hearings before this Committee on climate change, the best 
scientific evidence from all over the world, as well as the 
country, and there is near unanimous--not unanimous--near 
unanimous agreement that climate change is taking place and 
that human activity is responsible for a significant part of 
it. Exactly how much is really not clear.
    And Dr. Marburger comes before this Committee and states 
that we don't have the ability to predict that there are 
questions that are significant about whether we can even 
predict more than a few days, the climate, and it was probably 
one of the more astonishing performances.
    The President, by the way, as you described all the other 
things, did say that, yes, he read this bureaucratic product, 
or something along those lines--basically dismissed it.
    There are Members of this Committee that have been working 
on this issue for a long time, including me. It's a serious 
issue. And, interestingly enough, the rest of the world thinks 
it's a very serious issue. To wit, in South Africa there will 
be a meeting of some 60 nations early in September trying to 
work our way through this issue so that we can reduce this 
direct threat to our environment. And since the United States 
produces 25 percent of the greenhouse gases, with 5 percent of 
the population, we think we do have some responsibilities 
there. Unfortunately, there will be only a congressional 
representation there as real participants.
    So I can see that, from Dr. Marburger's statements and 
yours, Dr. Olsen, that we have a very serious challenge, 
because there is no credibility to Dr. Marburger's statement. 
And my disappointment in yours, not being able to understand a 
single paragraph and give me a definitive answer, is also very 
disappointing.
    This is a very, very, very serious issue.
    Dr. Olsen. And, Senator McCain----
    Senator McCain. And I'm very disturbed----
    Dr. Olsen.----I also consider it very----
    Senator McCain [continuing]. That this Administration----
    Dr. Olsen  [continuing]. Serious.
    Senator McCain. I'd appreciate it, Dr. Olsen, if you would 
not interrupt me. It's one of the customs that we observe here 
in the Senate.
    And I've very disturbed that Dr. Marburger would come 
forward with a statement such as he did. And again, I'm sorry--
we will have further hearings, and I'm sure Dr. Marburger will 
have a chance to defend his position.
    I thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague.
    I'm going to continue along this line for a moment or two, 
Dr. Olsen and Mr. Russell. I share Senator McCain's concerns 
about this science question and global warming. I think any way 
you look at it, we are basically alone out there with respect 
to 180 other nations. One-hundred-and-eighty nations are 
working together trying to find some solutions.
    The irony for this Senator is that there are a number of 
them out there that are bipartisan. For example, we've found 
repeatedly that carbon sequestration programs, programs that 
are supported by the environmentalists, by the timber industry, 
could deal with perhaps a quarter of the global warming problem 
in a way that is going to win bipartisan support--Senator 
Craig, Senator Brownback--a whole host of Senators have been 
involved in this. But we're not going to be able to get on top 
of any real progress in programs unless we acknowledge the 
seriousness of the science.
    So I share Senator McCain's views on this. Let me just 
finish up on this topic, before we go to some others, with a 
couple of questions.
    Let me try it this way. Do the two of you, Dr. Olsen and 
Mr. Russell, do you support the proposition that human 
activities are a significant factor in the climate change 
problem?
    Dr. Olsen. As Kathie Olsen?
    Senator Wyden. Yes.
    Dr. Olsen. I believe that humans have contributed, in terms 
of fossil fuels--to the greenhouse effect. I mean, if you look 
in terms of our industries and the history, yes, we have 
contributed to the greenhouse effect.
    Senator Wyden. Mr. Russell.
    Mr. Russell. Chairman Wyden, let me preface my statement 
with saying this really is outside of my general level of 
expertise, so I take that with some great caution. All I can 
tell you is that--what I've heard Dr. Marburger say, what I've 
heard Dr. Olsen say, what I've heard the President say, is that 
there is an element of global climate change which is directly 
related to human activity.
    Senator Wyden. Then I'll just wrap up this topic, Dr. 
Olsen, by asking you to explain the Administration's policy and 
why you think it's going to reduce greenhouse gas intensity. 
Now, as you know, the head on the Council on Environmental 
Quality has said that this position is going to allow U.S. 
emissions to rise. I think we would like to have on the record 
why you believe that the Administration's position is going to 
address climate change in a positive way.
    Dr. Olsen. I would like to get back to you with that answer 
in writing, sir, if that is OK.
    Please let me comment in the sense that--and I'll 
reiterate. You know, there is a lot of uncertainty to our 
knowledge, OK, in terms of that--and as I pointed out, we are 
in a warming phase. I think the Administration is doing a lot 
in the research area, which is something I can comment on.
    In terms of the research program that's being led by Dr. 
Mahoney at NOAA, he has brought together the different Federal 
agencies for the first time to really prioritize, in terms of 
what do we need answers in? What do we actually need to focus 
our research, focus our questions on as a Federal Government to 
bring answers so that, in 3 to 5 years, that we can actually 
use some of this research to set policy and to make policy 
statements?
    Senator Wyden. We'll keep the record open for your answer, 
but I will tell you, I think it is very unfortunate that we 
can't get an acknowledgment of the science here. I think that 
what Senator McCain read is unquestionably correct. I mean, we 
essentially stand out there alone, with 180 nations on the 
other side. In fact, it's not clear to me what, in effect, 
we're going to do other than to try to convince them that 
somehow we're right and they're wrong, because I think that 
they have clearly concluded otherwise.
    So I'm going support both of you. I think that you're good 
people and people who have a distinguished career in public 
service. However, I'm disappointed in these answers on global 
climate change. Clearly, this was a topic that you had to know 
was going to come up.
    So we'll expect, in future appearances, that you're able to 
address these issues in a more comprehensive way. Dr. Marburger 
knows of my strong views on this, as well.
    We're going to go on to some other topics, but this will 
not be the last time we talk about this in this Committee.
    Mr. Gregory, a number of questions for you. On the question 
of getting NASA's financial house in order and getting NASA 
back to its basic mission of scientific R&D, how do you view 
this agenda, and what are you going to be able to contribute, 
in terms of carrying it out?
    Mr. Gregory. Well, I think the first thing that I will 
contribute is that I acknowledge that research and science is 
the reason why we are doing this. NASA is a provider and 
enabler of science to be conducted. It's unfortunate that in 
the past we have looked at, perhaps, our obligations more in 
line with what we can do within a budget period within a year 
or so. Each of the centers and the headquarters have had their 
uniquely different approaches. And, as such, when you came in 
and looked at it and you tried to get a common answer, it was 
extremely difficult.
    If you look at the technical prowess of NASA, however, if 
you look at the successes, you will see that, from the 
technical point of view, we've been extremely strong, a long 
string of successes. It's the envy of the world. What we did 
not have is the financial maturity, the balance, the technical 
capability.
    So what we are doing is basically going back to basics, 
fundamentals, as you mentioned. It's in a series of activities. 
One, we had to determine we had some misappropriations or 
anything that would be shady in the program. We've had GAO 
investigations, and I think that we can clearly say that that's 
not the nature of NASA.
    The second thing is, PriceWaterhouseCooper (PWC) has come 
and attempted to audit, and you're probably aware of their 
inability to audit. Well, what we have done now is to sit 
down--this is kind of like the failure to communicate--what we 
have had to do now is sit down and understand what the 
difference is between PWC and the auditors that we had before, 
and then determine how we can approach the audit, how we 
characterize things, facilities, the Space Shuttle, and things 
of that nature, versus the solid rocket boosters, the engines, 
and things of that nature. And then I would assume that, very 
quickly, we will both be on the same page, and we will be able 
to audit.
    The third is certainly the financial management activity 
that we are working within the agency right now. We are looking 
at, one, beginning an effort to standardize the agency that we 
all, again, are working from the same page. At that point, we 
will begin to get our financial house in order. That's an 
activity that's just a small part, we're working in our 
independent assessment of the life-cycle cost of the Space 
Station. But in a much, much larger sense, following the 
President's management agenda in our IFM activities that are 
ongoing at this moment. I will predict that perhaps by the end 
of this summer, we should be able to answer each and every one 
of your questions.
    Senator Wyden. What would you say are Mr. O'Keefe's big 
accomplishments so far?
    Mr. Gregory. So far? I think he has turned the spirit and 
the morale of the agency 180 degrees.
    Senator Wyden. Any others?
    Mr. Gregory. Oh, lots of them. I mean, that was the most 
important one. He has provided a vision and a mission that is 
to the point. It is understood. We have now focused all of our 
activities toward the accomplishment of the missions. We are 
beginning to gather as one NASA. I can tell you that we had 
five different NASAs that were working, even though we 
attempted to eliminate those stovepipes. But, in fact, we have 
more communication in the halls now--not fake stuff, but real 
stuff--that begins to say, OK, the purpose of this is to do 
what? We answered the ``so-what'' questions. And we now have, I 
think, a much more united NASA or a single NASA.
    Senator Wyden. Let me turn to the Space Station. The 
General Accounting Office issued a report yesterday on the 
Space Station with respect to significant challenges that they 
believe continue. How soon should we expect to have NASA's 
final plan on the Space Station?
    Mr. Gregory. As far as the----
    Senator Wyden. Is it going to continue to be a work in 
progress, or when are we going to get a final plan?
    Mr. Gregory. Of course not. In my budget deliberation this 
spring and into the early summer, I have gone back and 
challenged every past decision. And so the budget preparation 
is part of it. We have an internal independent assessment that 
is going on right now and is based on the military program 
using cards. And we have an external independent group looking 
at the financial capabilities of the agency. All of those 
reports are supposed to be complete by the end of August. And 
my projection would be in the late summer, early fall, we 
should be able to answer the questions.
    Senator Wyden. Now, the ReMAP effort, the Research 
Maximization and Prioritization task force--that is a 
mouthful--put out a new report making various recommendations. 
But, to me, the real question is how soon is it going to be 
possible to move the Space Station beyond being a great 
engineering feat into a research program? When do you see that 
coming?
    Mr. Gregory. Well, I think I'd have to answer that in 
degree, because I was curious about the same question that 
you've just asked and I researched and tried to determine how 
much science has been completed so far on this facility or this 
building that is in work. And as of the 30th of June, about 
84,000 hours of science have been conducted on the Space 
Station. Most of that was autonomous.
    There is required, every now and then, some human activity. 
What I have tasked the Station program and the Shuttle program 
to do is to complete the U.S. core complete by the February/
March 2004 timeframe. We've worked with the international 
partners on this particular area. Soon after that, we will 
complete the international partner construction. If you were to 
ask me that question, I would say that we would be up and 
running at about the time that, on the new schedule, we said we 
would and which would be in the 2006 timeframe.
    Senator Wyden. When Administrator O'Keefe was here last, we 
had a big group of high school students in the back, and I 
asked him a question essentially about students in space. And 
if a student met every single one of the requirements--every 
one of them--for mission specialists that are required today, 
what would be wrong with that? After Administrator O'Keefe 
gasped, and you could see it, you know, in his face, he said 
that he'd look into it.
    How do you feel about having a research program that would 
really determine how we could get young people more inspired 
and more involved in space, including looking at the question 
of if they met all of the requirements of a mission specialist, 
including being allowed to go? If those young people are going 
to fight in battlefields all around the world, it seems to me, 
if they're qualified, they shouldn't be cut off from these 
opportunities either. How do you feel about looking into that 
and researching it?
    Mr. Gregory. Senator, you've caught me off guard on this 
particular subject. I have to answer as Fred Gregory on this 
subject. I understand exactly what you're saying. I have some 
grandkids behind me who I know, at this moment, would skip 
school so that they could prepare to go fly in space. It's a 
bit more complex than that. As I look back----
    Senator Wyden. Nobody is talking about grandchildren, Mr. 
Gregory. We're talking about people who can go fight in 
Afghanistan and who can go out and defend this country, 
whether, if they're qualified, they could be a mission 
specialist. I'm not talking about grandchildren.
    Mr. Gregory. I agree that you're not talking about my 12- 
and 14-year-olds, you're talking 18 and older. And, again, I 
would have to fall back on the kinds of preparation that would 
be necessary.
    First would be the unselfish part of it. An 18-year-old 
would have perhaps just finished high school. And if that 18-
year-old were so smart that she could--and he could--fly in 
space, then I look at the potential loss to the world of using 
those potentials if you allow that person to continue in 
universities and postgraduate schools, et cetera.
    So I think, at 18, first of all, I would not think that 
they would be qualified to fly because of the requirements. 
They would have to learn the engineering, the science and the 
math necessary to do it. I think we could fly them, certainly. 
But they would fly more as a guest, and not necessarily as a 
contributor.
    But since you've caught me with this one, we have just 
begun the Mission Specialist Educator program, and we're 
working in conjunction with the education technical societies, 
the education societies, and the Department of Education. And 
one of the suggestions was, if we will have a Mission 
Specialist Educator program, to follow in the lines of Barbara 
Morgan, perhaps we should have students who participate in the 
selection of those teachers.
    I was amazed at the push-back that I got from some of these 
educational groups. They say things such as, ``Certainly you 
can do that, but you'll be responsible for their decisions.'' 
Well, I can't think of anything more that I would rather be, is 
responsible for those decisions. They said, ``Well, they would 
choose exciting teachers.'' And I was thinking, well, what 
better teacher would you want to take to space than someone who 
is exciting?
    And so we are looking at it, not so much from the 
participation yet in orbit, but certainly in the participation 
in the preparation for people to go on orbit. But we have had 
26-year-olds who have flown in space.
    Senator Wyden. I would only hope that the agency would say 
that if you're qualified, if you meet all of the bottom-line 
requirements, your government isn't going to hold you back. The 
government is going to be looking for ways in which you tap 
your potential, particularly when you can have scientists and 
young people, like we saw in this room when Mr. O'Keefe was 
talking about it. I just even started the question, and these 
young people who were studying science broke into applause.
    We ought to give them a reason to dream, not to have sort 
of silly ideas that children at little-league age can go to 
space or something like that, but that if you can go fight for 
your country and you can meet the qualifications required of a 
mission specialist, age alone shouldn't rule you out.
    I want the agency to research this. I don't want the agency 
to start anything tomorrow or the next day or the next day, but 
I want the agency to research it. I think that's part of what 
we hope will happen on the O'Keefe watch.
    Let me turn----
    Mr. Gregory. Senator, can I respond?
    Senator Wyden. Of course.
    Mr. Gregory. Let me change my response to exactly----
    Senator Wyden. I hope you will.
    [Laughter.]
    Mr. Gregory.I have changed my response to exactly what you 
said.
    Senator Wyden. Good.
    [Laughter.]
    Senator Wyden. That is never a bad judgment for a nominee.
    [Laughter.]
    Senator Wyden. I mean, really, I think all I wanted to 
convey is let's do the research, and let's tap all of our 
opportunities. We are anxious to work with you on that.
    Let's turn now to Dr. Olsen and Mr. Russell. There has been 
concern about the Administration's intention to nominate two 
rather than four Associate Directors of OSTP. The concern is 
that the Administration wouldn't have the Associate Director 
positions for national security and for the environment that 
were present before. I think everybody would agree that these 
are vitally important. What's the signal being sent here by 
this, and what's being done to try and address this?
    Mr. Russell. Mr. Chairman, I'd like to answer that question 
for you. When Dr. Marburger took over as the Director of the 
Office of Science and Technology Policy, one of the things he 
wanted to do was reduce stovepipes within the organization. 
Virtually every director, when they've taken over, especially a 
change of Administrations, has reorganized the office, but 
generally we've ended up with four associate directors.
    The idea of having two and defining them, one as technology 
and one as science, is to, A, reduce stovepipes, and, B, allow 
for synergy within the office. The less top heavy an 
organization is, especially an organization as small as OSTP, 
which is about 50 people, the greater the chance that you're 
going to have the kind of interactions and synergies, because 
there will be less opportunity to view individual issues 
narrowly within the band, be they the environment or national 
security or technology.
    Obviously, virtually all the issues we deal with have some 
crossover. And so the idea was to try to create an organization 
that could be more responsive, less top heavy, and without 
stovepipes. And I have to say, having been Chief of Staff 
there, and then a consultant there--I've been at OSTP now for 
almost a year-and-a-half--it has worked extremely well under 
Dr. Marburger's leadership. And so I think it was a very wise 
decision.
    Senator Wyden. Well, I'm all for synergies. Put me down as 
pro-synergy. However, I want to make sure that those functions 
do not get downplayed. They're important ones, as you know, 
given energy bill's efforts to try to deal with it, and we're 
anxious to work with you on it, but we've got to get those 
issues to visibility and the attention that's important.
    For you, Mr. Russell and Dr. Olsen, let's talk about the 
coordination between your offices and the new Department of 
Homeland Security. I want to preface this by saying that Dr. 
Marburger and all of those associated with your organization 
have been very helpful, very constructive to us in working on 
our efforts to mobilize science and technology experts in the 
homeland security effort.
    Tell us, if you would, how you see OSTP and the new 
Homeland Security Department interacting and coordinating, 
particularly research and development across the agencies.
    Mr. Russell. Terrific. Well, let me preface the comment 
with an explanation of how we're set up right now. And I tried 
to explain it in my written testimony, but, to be honest, I 
didn't want to bore everyone with the lengthy detail of our 
bureaucratic processes.
    We have seven departments under the two associate 
directors. One of those seven departments is one of homeland 
security and national security. That is staffed by an 
individual who answers directly to Dr. Marburger through our 
chief of staff. That person works both for OSTP and the Office 
of Homeland Security. So the person works for both Governor 
Ridge and Dr. Marburger. This has really allowed OSTP to fill 
the central role of advising on R&D issues associated with 
homeland security.
    And it is our expectation that when the department is stood 
up again, OSTP will have a central role in helping to 
coordinate R&D for homeland security.
    Senator Wyden. Dr. Russell.
    Dr. Olsen. I'm Dr. Olsen.
    Senator Wyden. Excuse me. My apologies. Mr. Russell, thank 
you.
    Dr. Olsen.
    Dr. Olsen. No, I can't add anything to what he said, except 
that everybody in the office is really committed to this issue 
and working as a team, the office responds depending upon what 
are the questions. For example, if it's vaccines or biological, 
it's from science. If it's more cyber-security and that, it's 
from technology, and they are all energized.
    Senator Wyden. Mr. Russell, how would you put the current 
troubles of the technology sector in perspective? As you know, 
it wasn't very many years ago when few would say we'd see the 
kind of problems in the tech sector we're seeing now. What do 
the current struggles say to you about the role of technology 
and the economy and the potential of technology to spur 
productivity?
    Mr. Russell. I tried to touch on this in my testimony. I 
think the two are severable issues. Obviously, the NASDAQ and 
technology companies, the valuation of technology companies, 
has been hit very hard since the peak of that back in March of 
2000.
    That being said, I think, from a productivity standpoint 
and an economic standpoint, there's no question that technology 
is leading to increased productivity for our Nation, that it is 
a critical component of our economy. And that has not changed.
    That fundamental belief in technology as a driver of our 
economy has not changed, at least not in my mind. And I think 
that we have to separate what the NASDAQ is doing from the 
actual productivity gains we're seeing in the country and in 
the economy.
    Senator Wyden. Does the crisis in the tech sector require 
any major changes in the way government thinks about technology 
policy, in your view, Mr. Russell?
    Mr. Russell. I think that we have to realize that 
technology implementation isn't instanteneous. And I think that 
the Administration is going down that path. I think we have to 
harness technology in a manner that really does produce 
results. I think that's what the E-government initiative, for 
example, is all about in the Federal Government. I think we're 
going to see the same thing with homeland security.
    Technology, by itself, is not a panacea, but it is an 
extremely important tool, which we can use to increase 
efficiencies and to accomplish goals that we really couldn't do 
without technology. So I think it's a slightly more patient 
approach.
    Senator Wyden. Dr. Olsen, as you could tell, and I welcomed 
your statement, I want to see a much more aggressive effort to 
get women in the hard sciences. You've got a track record in 
this area and you've served as a Federal representative for the 
Commission on the Advancement of Women and Minorities that was 
established by the Congress in 1998, and you made 
recommendations, as I understand it, to help achieve the 
objectives.
    What were some of the things you fought for, the areas that 
you really pursued as a commission member? And what's your 
sense about their impact?
    Dr. Olsen. Well, I guess dating back to my experiences in 
high school, I think it would have been a shame that if there 
were only two women in the science class, that we would lose 
them. And one of my concerns is in terms of the quality of the 
teachers that spend a lot of time with the students and really 
make the first sort of impression. I think that this is very 
important. As you're probably aware, many of the teachers that 
are teaching science have not majored or even minored in a 
science area, and I think that this is very important, because 
they're sort of the first link.
    Another one is in terms of image. It's an interesting 
thing. I'll give you an example. I went to a third-grade school 
in Pittsburgh, and I went in when I was the chief scientist of 
NASA. It was an all-girls school. They were asked beforehand to 
draw a picture of a scientist. And all the little girls drew 
pictures of a girl except for three, and those were the three 
that had just transferred into the school. They had an image 
that a scientist has to be a man.
    Even in the last 8 months, since I've been nominated for 
this position, so many people have come up to me and said, 
``You don't look like a scientist.'' I do think that we do have 
sort of an image problem for all scientists out there. And it's 
something that the Commission is going to take on.
    The other thing is, you know, we have made some strides. 
The National Science Foundation 2002 indicators have shown that 
in all the disciplines, the participation of women have 
increased over the last 10 years. We need to look and see which 
of the programs have actually worked and make sure that we 
maintain those programs as well as try new activities.
    It's interesting, because in biology, women are about 40 
percent. In social sciences, we're 40 to 50 percent. In 
engineering, while it has increased, it's still less than 20 
percent. And in physics, it's just made it over 20 percent. 
That is just not--it just can't be acceptable. Under-
represented minorities are even a worse case than women.
    Senator Wyden. Are there other new initiatives or new 
programs that you'd like to pursue in your new position to go 
after these big disparities?
    Dr. Olsen. Yes, I would. One of the things that--if I'm 
confirmed--we have the National Science and Technology Council, 
which brings together the Federal agencies to address some of 
these issues. The Department of Education and the National 
Science Foundation are now actually starting to talk and 
starting to get some programs targeted toward teachers.
    The other thing that's actually very interesting is, in 
schools, 30 percent of people that enter college enter as a 
major in science and engineering. But less than half of those 
actually graduate in science and engineering. So we also have 
to look at our colleges and universities to see where we can go 
with that.
    I actually am a strong believer in mentoring programs. I 
think that they have worked, but it's not just mentoring at one 
little stage and then stopping. You really have to look at this 
through the entire span of an individual's science career.
    Senator Wyden. Mr. Gregory, the NASA program is going to 
put a new focus on education, and I think it's very welcome. 
How would you like to go about encouraging more women to get 
into science and engineering?
    Mr. Gregory. If I could limit it not just to women, but we 
could talk about minorities in the whole scheme. It has been a 
dilemma for me. I was born in Washington, grew up in 
Washington, came through the public schools in Washington. And 
observations of the capability of students in Washington now, 
with some exceptions, are below my expectation. I have 
struggled with how we recover perhaps what we have let slip.
    I've spent a lot of time working in the third grade and the 
fourth grade. In my experience in the last 15 or so years, I've 
found that up until about the third grade, students, regardless 
of race, regardless of ethnic background or sex, seem to be the 
same. After the third grade, there seems to be a divergence for 
some reason.
    NASA is certainly looking for scientists and engineers. We 
would certainly like to have a pool of a completely diverse 
group to pick and choose from. We don't have it. We're 
frustrated, and it shows up in our statistics.
    If I were running that particular section, I would 
concentrate on the elementary school, the third and fourth 
grades, establish relationships, mentoring, establish 
standards, four standards, and see how that works.
    Senator Wyden. I think those are useful steps. I also hope 
that you all will really set out some goals so that we have a 
chance to measure which programs are not working and which 
programs are making a difference. We've talked to the 
Administrator about it, and we'll hope to have your support for 
that, as well.
    Mr. Gregory. And you certainly will. I think your goals are 
the standards that I'm talking about--are certainly 
performance-based, and we would have to choose the ones that 
work and either modify or dismiss the ones that don't.
    Senator Wyden. Very good. Just a couple of other areas, and 
we can wrap up.
    Mr. Russell, I know you've talked about nanotechnology and 
that that will be a priority for the Administration, and that 
it's an interest of yours. And it is one in which I share your 
view. I think it's an important one. What do you see as a role 
for the Federal Government in this?
    I suspect that a lot of people in the field would--if you 
asked them what the Federal Government's role in nanotechnology 
would be, they'd say, ``Please stay as far away as you possibly 
can and let us do our thing.'' Clearly, we don't want anything 
that will stifle innovation in the private sector, but I'm 
curious what you think the government's role ought to be.
    Mr. Russell. Oh, no, absolutely. That being said, though, I 
think there's an awful lot of basic research that still needs 
to be done, in terms of nanotechnology.
    Nanotechnology, which you're well aware of, is really 
reducing things to their smallest component pieces, down to the 
atomic level, sometimes the molecular level. And our 
understanding of how to do that, how to measure that, how to 
set standards for that, and in many cases, how to manufacture 
within that range of really tiny particles, is something that 
we may not currently have, and may not for quite some time, 
have a practical commercial application.
    So I do think the Federal Government has an important role 
in funding basic research related to nanotechnology 
development. And I think that's exactly what the National 
Nanotechnology Initiative is designed to do.
    Senator Wyden. One last one for you, Dr. Olsen. On the 
government labs, I think we know that a lot of the laboratories 
in the facilities which support government scientific 
enterprises were built decades ago, 40, 50 years ago, and are 
in tremendous disrepair. What would you see as your role, as 
your office's role, in helping to put in place a plan to get 
the upgrades and necessary improvements done?
    Dr. Olsen. I think that we have to bite the bullet and 
actually recognize that we do have a problem with the 
laboratories. And when we are developing the budget for the 
Federal agencies, that we need to consider that aspect. It's 
also, as I say, an issue at the universities and colleges, 
especially in terms of some of the States.
    When I chaired the panel on facilities, you'd be amazed at 
some of the pictures. I still remember at one university, they 
were standing on buckets in a chemistry lab doing experiments 
because of the leaks in the roof.
    And I think that, if I am confirmed, I would like to work 
on ways, creative ways, with the universities and with the 
Federal labs on how we can go about really trying to make at 
least a small impact into this major problem.
    Senator Wyden. I don't have any further questions, but let 
me leave you with this. I want to get all three of you 
confirmed as soon as possible. I think you're good people. I 
think you're dedicated professionals and sincere in your views.
    I think you, Dr. Olsen, and you, Mr. Russell, understand 
that Senator McCain has some concerns on the climate change 
question. I share those, and I think I've made that clear. I 
want us to understand that the science here is no longer in 
question; it is indisputable. I want to see the remedies to the 
problems--one along the lines that I mentioned--that will be 
supported on a bipartisan basis in the U.S. Senate that will 
bring together people across the political and economic 
spectrum, as we've been able to do in carbon sequestration.
    I think that once we can get on top of an acknowledgment 
with respect to the science and what humans contribute and the 
other underpinnings of the science question, then we can begin 
to go to the next level, which is to talk about programs that 
are constructed and well thought out and practical.
    But Senator McCain has indicated that he can't support the 
two of you, Dr. Olsen, and you, Mr. Russell, at this time, so I 
hope you can get back to Senator McCain, address his concerns. 
I want to see all three of you confirmed as soon as we possibly 
can, and I think that is Chairman Hollings' desire as well.
    It's my custom to give any of the three of you the last 
word, and we will adhere to it. Is there anything that any of 
you would like to add further? You're not required to.
    Mr. Russell. I was just going to say thanks again for the 
opportunity for this hearing. I've been waiting for it for some 
time, and I'm really pleased, and I appreciate the time and 
effort that you've put in on these issues.
    Senator Wyden. All right.
    Dr. Olsen. And, Senator Wyden, I also want to thank you. 
What you said in the closing, I share with you. I wanted to say 
at closing that, as you know, I was NASA's chief scientist. I'm 
a biologist. And when they actually called me, I started 
laughing, to tell you the truth, because I'd never had an 
astronomy course. Well, when I went to NASA, I learned 
astronomy, and I learned about the next generation telescope 
and Terrestrial Pathfinder.
    And if I am confirmed, and even that, I plan to become an 
expert on the climate change. I've already read the reports. 
I've actually had my brother, who chairs the Department of 
Environmental Coastal and Ocean Sciences and U-MASS-Boston, 
provide me lectures in terms of this area. I have to admit, I 
am not an expert, but I also know where the expertise lies 
within the Federal Government, within the scientific community. 
And I pledge that I will become very, very knowledgeable on 
this topic.
    Senator Wyden. Well, I appreciate that, as well. And, look, 
there are going to be disagreements. This is not a huge 
surprise that there are disagreements between some of us on the 
this side of the dais and in the Administration on the climate 
change question. That's not astonishing to anybody.
    But I do think that on some of the fundamental science 
questions, we've got to acknowledge common ground. Once we do 
that, then we go to the next level, and people like me are 
anxious to meet the Administration halfway as we have done so 
consistently in a variety of areas.
    There is certainly nothing inherently partisan about 
science policy. Quite the opposite. It ought to be driven by 
the dreams and hopes of scientists and at lab benches and other 
facilities. So let's see what we can do to move forward.
    Mr. Gregory, you somehow got spared, for the most part this 
afternoon. Since you came around on doing the research in the 
student space program, I ought to let you quit while you're 
ahead.
    [Laughter.]
    Senator Wyden. Anything you'd like to add further?
    Mr. Gregory. I'd like to say that I'm just humbled to be 
able to sit across the table from you. And, if confirmed, I 
will do everything that I have promised to do and will work 
with the Congress and the White House to make this the best era 
that's possible.
    Senator Wyden. We appreciate your dedication, and Dr. Olsen 
and Mr. Russell. Thank you. Thank you for your patience.
    The hearing is adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned.]

                            A P P E N D I X

               Prepared Statement of Hon. Conrad Burns, 
                       U.S. Senator from Montana

    Thank you Mr. Chairman, I would like to thank you for holding this 
very important and very delayed hearing. Before us we have three 
nominees recommend by the President. They represent a wealth of 
knowledge and experience in their respective fields and I am supportive 
of all three.
    I have a particular interest in my good friend Kathie Olsen. As a 
fellow from the National Science Foundation, Kathy advised me on 
science and space issues. She was such a great resources in my office 
and to the people of Montana that I asked her to stay on for an 
additional year. Fellowships are an important tool for us in Congress 
and Dr. Olsen was a great example of how those fellowships benefit not 
only our constituents but the Federal Government as well.
    Dr. Olsen has a PHD in biology and served as a postdoctoral fellow 
at the Harvard Medical School. She has worked as an Assistant Professor 
instructing students on science related matters. Not only does she have 
a strong academic background, but she is also a competitively funded 
researcher and scientist. While in her 20s, Dr. Olsen successfully 
applied for NIH funding to use genetic models to understand the brain, 
a method that was then in its infancy and is now part of mainstream 
science.
    Dr. Olsen is widely published in journals and books in the 
neuroscience literature.
    She brings with her experience from the NSF and as Chief Scientist 
at NASA. She has organized and managed major Federal funding 
competitions, including the last Science and Technology Center review 
for NSF. Dr. Olsen has served on scientific peer review panels and 
participated in site visits for DOD, NIH and NSF programs.
    As NASA's Chief Scientist, Dr. Olsen developed a plan that led to 
the establishment of the Office of Biological and Physical Research, 
with a mission to use the synergy between physical, chemical and 
biological research in space to acquire fundamental knowledge and 
generate applications for space travel and Earth applications.
    Dr. Olsen has been a major participant in several speaking and 
mentoring roles to encourage women, minorities and children to consider 
a career in science. In fact, Dr. Olsen has been a participant in 
several Women's Conferences in Montana. Dr. Olsen has received numerous 
awards from government, industry, major international professional 
societies, and colleges and universities including an honorary degree 
based on her role as a mentor to young scientists.
    Finally, Dr. Olsen is aware of the importance of the need to 
geographically broaden the recipient pool of Federal R&D dollars. 
Montana's Higher Education system is brimming with talent. The quality 
of research conducted at Montana State University and the University of 
Montana is equivalent to the research conducted at more well-known 
universities like Stanford, MIT and Harvard.
    However, our researchers are at a significant disadvantage. The 
main factor that separates us from these prestigious universities is 
the level of funding. About half of the States in the U.S. receive less 
that 10 percent of all Federal R&D funding.
    The EPSCoR programs provides for a foundation to build on research 
capacity in rural States and allows universities in rural States to 
develop expertise in high technology areas like nano-technology and 
opto-electronic technologies.
    At Montana State University, Jack Horner, a world-renowned 
paleontologist (dinosaur guy) has received an EPSCoR award to study 
prehistoric Earth and the inhabitants at that time.
    Space researchers and students at MSU have used EPSCoR funding to 
build a small satellite (CUBESAT) that will be launched either this 
year or next. This CUBESAT will orbit the earth and measure the 
radiation levels in space replicating the experiment of America's first 
satellite, Explorer One. This is an example of how students at a rural 
university can benefit and contribute to our Nation's exploration of 
space.
    EPSCoR funding provided funding for a project at the University of 
Montana to understand and lessen the burden of neurological diseases. 
Dr. Olsen certainly has a keen interested in that subject.
    The bottom line: Dr. Olsen is a well-rounded scientist with a 
superb resume. As an advisor to her peers, Members of Commerce and the 
current and past Administrations, I encourage my colleagues to support 
her nomination and the nominations of Mr. Russell and Mr. Gregory.
    Thank you, Mr. Chairman.

                               __________

 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                          Frederick D. Gregory

    Question 1. This Committee has been concerned that not a high 
enough priority is placed on the maintenance of infrastructure at NASA 
Centers. At a hearing before this Committee in September, witnesses 
testified that improper infrastructure maintenance was adversely 
affecting safety and performance of the Space Shuttle. Will 
infrastructure maintenance be a major focus of NASA under your tenure?
    Answer: Although I cannot address overall agency infrastructure 
issues at this time, while serving as the Associate Administrator of 
Space Flight, I have been involved in addressing the Space Shuttle 
program's infrastructure issues. NASA's fiscal year 2003 budget request 
includes approximately $2 billion over the next 5 years to support 
Shuttle safety upgrades, supportability upgrades, infrastructure 
revitalization, and reserves. Shuttle infrastructure revitalization 
projects will replace, repair and/or rehabilitate systems and 
capabilities that have become obsolete, degraded to a point where 
repair is not possible (i.e. replacement is necessary), spare parts are 
no longer available, or systems are in poor condition and must be 
upgraded and/or replaced. Priority considerations include: support of 
program goals and objectives, impact on flight hardware processing, 
manufacturing & testing, breakdown history, obsolescence, life cycle 
cost, payback, climate, weather and environmental situation.
    The Shuttle Program has worked diligently to identify the 
infrastructure projects necessary for the program to continue operating 
safely into the foreseeable future. This effort will continue to be a 
major focus of the Shuttle program as it seeks to make the best use of 
available funds.
    Question 2. One of the issues highlighted in the Young Report was 
that the final International Space Station cost estimate at completion 
has not been a management criterion within NASA. The Station cap that 
Congress established was on the overall development costs for the 
Station along with the use of the Space Shuttle. Can you elaborate on 
this finding and comment on how you would propose to deal with the 
issue?
    Answer: NASA acknowledges that the life cycle cost of the ISS was 
not a management criterion prior to the recommendations of the Young 
Report. As the Young Report pointed out, the focus had been more on the 
budgetary process and its associated annual cycle, than the Program's 
life cycle. The Report recommended that NASA develop a life cycle 
technical baseline and manage the ISS program to total cost and 
schedule as well as fiscal year budgets. NASA has accepted this 
recommendation and has taken several distinct actions in order to 
establish the life cycle cost at completion as management criteria.
    A Cost Analysis Requirement Description, or technical baseline, has 
been created which defines all the Program requirements and takes into 
account operational, maintenance and logistical requirements through 
end of the ISS life.
    Also, two independent cost estimating teams were formed in early 
2002, (one internal and one external to the Agency), to evaluate the 
life cycle costs of the Program. Their evaluations will be a key input 
in NASA's fiscal year 2004 budget process.
    The scope of the technical baseline is managed and costed via a 
Work Breakdown Structure (WBS). The WBS will be populated using 
integrated life cycle cost information creating a new Performance 
Measurement Baseline against which the future execution of the Program 
will be judged.
    Question 3. In your answers to the pre-hearing witness 
questionnaire, you stated, ``if an agency continually fails to achieve 
its performance goals, I would expect that agency's management to be 
held accountable for developing a corrective action plan and 
implementing it.'' Considering NASA's difficulties in managing its 
finances and concerns that have been raised about the amount of science 
research that can be performed on the International Space Station, what 
actions do you think Congress should take to make NASA's management 
more accountable?
    Answer: From my perspective, Congress can play an invaluable role 
by ensuring effective oversight of NASA and working with NASA and the 
Administration to remove unnecessary barriers to achieving the NASA 
Vision and Mission. I look forward to opportunities to work with the 
Congress in implementing NASA's Strategic Human Capital Plan, including 
approval of necessary flexibilities, to ensure the agency retains the 
competitive, diverse work force it needs.
    Congress can also help hold NASA accountable by requiring continual 
efforts at improving the integrity and reliability of agency financial 
information and supporting the implementation of necessary reforms. As 
one example, the agency is grateful to the Congress for its support for 
the recent movement of $11 million dollars in the current operating 
plan in order to kick-start consolidation and upgrades of NASA computer 
systems that are required for NASA's Integrated Financial Management 
System.
    The Congress can hold NASA accountable through support of 
independent, external reviews such as the Research Maximization and 
Prioritization (REMAP) Task Force and the ISS Management and Cost 
Evaluation Task Force (IMCE). Such reviews can provide flexible and 
responsive means for rapidly bringing world-class experts in to assist 
NASA on major challenges.
    Congressional support for integrated agency-wide planning efforts 
can also be a means of holding NASA accountable by creating a better 
common understanding of the challenges and opportunities facing the 
agency. NASA is currently revising its Integrated Space Transportation 
Plan (ISTP), which coordinates investments in the Space Shuttle and 
investments to replace the Shuttle with lower cost, safer, privately 
operated space transportation capabilities through NASA's Space Launch 
Initiative (SLI). The results of such internal NASA assessments are 
critical to develop realistic and integrated plans for developing new 
technologies and capabilities.
    Question 4. The National Academies of Science's Space Studies Board 
recently released a report that recommended priorities for exploration 
of the solar system from 2003 to 2013. These priorities included 
missions to Pluto and the Kuiper Belt; Europa; Venus; and Jupiter. How 
will NASA use this report, which was prepared at NASA's request?
    Answer: NASA received the National Academy of Science's Space 
Studies Board recommendations for Solar System exploration in July. We 
are currently in the process of assessing this comprehensive study for 
mission feasibility and conformity with established cost caps. It is 
NASA's intention to use the mission sets identified to shape future 
Announcements of Opportunity for Solar System exploration. NASA will 
continue to use the external peer-review process to evaluate proposals 
received and make final selections based on scientific merit and 
mission feasibility.
    Question 5. The recently released Research and Maximization and 
Prioritization (REMAP) Task Force report found that ``if enhancements 
to ISS beyond `U.S. Core Complete' are not anticipated, NASA should 
cease to characterize the ISS as a science-driven program.'' After 
being told for years that the purpose of the Space Station was ``world-
class'' research, I find this statement remarkable. What steps does 
NASA need to take to ensure that there will be sufficient capability to 
conduct research on the Space Station?
    Answer: In posture hearing testimony earlier this year, NASA laid 
out the steps needed to define necessary capabilities as well as to 
address the cost challenges of the ISS. Last November, the ISS 
Management and Cost Evaluation (IMCE) Task Force, provided the basic 
roadmap, which NASA has endorsed, to improve ISS management. We are 
well along in effecting proper controls, regaining credibility and, 
first and foremost, understanding the research requirements that will 
determine the capabilities needed.
    NASA has initiated a five-point assessment of the ISS program, in 
order to reform and revitalize the program and ensure the construction 
of a viable ISS that fulfills its potential as a world-class research 
facility. These five areas of the assessment are: science priorities, 
engineering development and deployment, cost estimating and analysis, 
mission and science operations, and international partner coordination.
    The ReMaP task force activity is a key element of the science 
priority area of the ISS assessment. The task force focused on science 
priorities for NASA's Office of Biological and Physical Research. The 
NASA Chief Scientist has led an assessment of ISS research activities 
for all of the NASA enterprises. In addition, research requirements for 
the ISS International Partners are being assessed through the ISS 
Utilization Operations Panel. Together, these research requirements 
will be used to identify ISS capability needs and options for achieving 
these capabilities.
    Question 6. Another issue of interest to the Committee is how to 
promote commercialization of space. Based on your years of experience 
in the space program, what recommendations do you have for providing 
incentives for greater private sector involvement in space?
    Answer: To fulfill the Space Act mandates and to effectively 
implement its Vision and Mission, NASA needs commercial partners to: 
Translate NASA-funded technology into commercial products that 
contribute to economic growth; Join in developing new technologies and 
products that support NASA missions; and Explore market-driven research 
opportunities that exploit the unique environment of space.
    Commercial activities at NASA must support the President's 
Management Agenda, which calls for: Increased dependence on private 
sector for functions not inherently governmental; Limiting the size of 
government and making it more effective; and Competitive sourcing to 
meet governmental needs for goods and services.
    Engagement of private sector commercial and non-profit interests 
can occur in several ways: Technology Transfer: Providing the NASA-
developed technology to the private sector for inclusion in 
commercially developed goods and services; Joint Ventures and 
Partnerships: Collaborating with the private sector to develop new 
programs or enhance existing programs using shared resources for the 
mutual benefit of both NASA and the private sector participant; and 
Research Opportunities and Technical Assistance: Providing private 
sector access to unique NASA assets, resources, practices and expertise 
to conduct commercial R&D, manufacturing, and non-traditional 
applications.
    Opportunities for private sector involvement exist in all NASA 
Enterprises and program areas.
    Question 7. A July 8th article in Space News International reported 
that NASA was considering not fielding a new two-stage reusable 
launcher by 2012, which was the goal of the Space Launch Initiative. 
What should be NASA's strategy for Space Shuttle replacement and next-
generation space transportation?
    Answer: The purpose of the Space Launch Initiative (SLI) program is 
to identify and close the technology gaps necessary to enable the 
development of a safer, less costly, commercially viable 2nd Generation 
Reusable Launch Vehicle (RLV) capable of fulfilling NASA's needs. 
Although the overall strategy focuses on being able to deliver a new 
two-stage reusable launcher by 2012, a decision on whether to proceed 
with full-scale development of the SLI is not scheduled until fiscal 
year 2006.
    NASA is re-evaluating the Agency's advanced space transportation 
strategy as part of this year's update to the Integrated Space 
Transportation Plan (ISTP). This study will provide the guidance for 
future Agency space transportation development.
    Question 8. On November 23, 2001, the Chinese government announced 
that it will start manned space flights missions in 2005, with the 
objective of reaching the Moon. Do you think that the United States 
should consider another mission to the Moon, and the establishment of a 
lunar base for scientific research?
    Answer: The space science community has not expressed an interest 
in a lunar base for scientific research, and there is currently no plan 
to pursue such an endeavor. It should be noted, however, that the Space 
Studies board has endorsed a lunar mission called the South Pole-Aiken 
Basin Sample Return Mission. This mission would robotically return 
samples from the solar system's deepest crater, which pierces the lunar 
mantle. This endeavor is not suited for a human exploration mission 
because it can be most efficiently and safely performed robotically.

                               __________

    Response to written Questions Submitted by Hon. John McCain to 
                           Richard M. Russell

    Question 1. Over the years the U.S. economy has become reliant upon 
a steady flow of technology for continuous economic growth. The U.S. is 
investing over $40 billion per year in civilian scientific research. Do 
you have any ideas of how the technology transfer process may be 
improved to increase the flow of technologies from federally sponsored 
research laboratories to the marketplace?
    Answer: The 1980 Bayh-Dole and Stevenson-Wydler Acts continue to 
provide the basic statutory framework encouraging the transfer of 
technology from federally funded research from universities and Federal 
labs. Recent statistics from the Association of University Technology 
Managers (AUTM) show that the technology transfer related to federally 
funded university research, through Bayh-Dole mechanisms, is working 
well. The Technology Transfer Commercialization Act of 2000 aims to 
improve the transfer from the Federal labs. The Department of Commerce 
chairs an interagency group that is revising the licensing regulation 
to implement the new statutory authorities.
    Another important factor in successful technology transfer is a 
strong scientific and engineering workforce in the United States. 
Without an adequately skilled workforce, the ability of private sector 
companies to capture and commercialize innovation from federally funded 
research will be compromised.
    If confirmed, I will work to help address both the underlying 
science and technology workforce issues as well as the proper 
implementation of the Technology Transfer Commercialization Act. In 
addition, I will work with the President's Council of Advisors on 
Science and Technology (PCAST), which is engaged in a review of our 
Nation's technology transfer processes. PCAST intends to release a 
report in fall 2002 with its findings on technology transfer mechanisms 
that encourage commercial development and ensure maximum benefit for 
Federal research funding.
    Question 2.  What are your thoughts on the Advanced Technology 
Program and whether or not it is the type of research program that 
satisfies the needs of the Nation's research agenda?
    Answer: The Secretary of Commerce has proposed a number of 
important reforms to the Advanced Technology Program (ATP). For 
example, the reforms involving universities (allowing universities to 
lead ATP joint ventures and to negotiate intellectual property-rights 
with industry joint venture partners) serve a dual purpose. These 
proposals recognize the value of university-based research and the role 
that it plays in developing high-impact technologies. Additionally, the 
reforms would make it easier for universities to accrue financial 
benefits in return for the research contribution they make to joint 
ventures. The recommendation to limit participation of large companies 
only to joint ventures (not as single-company applicants) provides 
greater support for small and medium sized businesses (SMBs) by 
ensuring that participation by large companies is not at the exclusion 
of SMBs. The proposed reforms aim to strengthen and to improve ATP. I 
support these reforms and believe that following their enactment, ATP 
will be a more important component of the Nation's research agenda.
    In considering funding for ATP, I also think it is important to 
recognize that the National Institute of Standards and Technology 
(NIST) faces its own prioritization issues. The NIST laboratories, 
which have received national and international recognition ranging from 
government awards to Nobel Prizes, are central to satisfying NIST's 
core mission. I believe ATP funding must be weighed against the 
possible use of that same funding to improve NIST's core laboratory 
functions.
    Question 3.  A recent National Academy of Sciences Panel 
recommended the establishment of a Homeland Security Institute to 
provide analysis, simulation, and modeling to assess vulnerabilities 
and assess the effectiveness, of steps taken to reduce them. This 
institute would report to a newly created Undersecretary for Science 
and Technology within the new Department of Homeland Security. Do you 
have any thoughts on this proposal?
    Answer: The President's recently released National Strategy for 
Homeland Security discusses the need for independent and private 
analysis for science and technology research. The Department of 
Homeland Security (DHS), under the President's proposal, will fund 
independent analytic support for our homeland security science and 
technology endeavors. The Department will assess potential roles for 
these functions, given the capabilities currently provided by the 
National Infrastructure Simulation and Analysis Center and other DHS 
components associated with information analysis and critical 
infrastructure. These efforts will support planning activities, 
including net assessment, preparing agency guidance, and reviewing 
agency programs and budgets; systems analyses; requirements analyses; 
assessments of competing technical and operational approaches; and the 
Department's use of ``red team'' techniques. The organizations that 
provide this support to the Department will be allowed to undertake 
long-range projects and should have access to sensitive government and 
proprietary data, including intelligence assessments. They should be 
objective, staying free from conflicts of interest with other 
government institutions and the private sector.
    I fully support the need for this capability. I am pleased that the 
current legislation, both in the House and Senate, contains language 
creating this capacity consonant with the President's goals.
    Question 4.  The issue of cyber security is of great interest to 
this Committee. A number of different departments and agencies, 
including NSF, the Department of Commerce, NSA, and DOD are all engaged 
in research activities. What action is OSTP taking to coordinate the 
activities of these departments and agencies, and ensure that they are 
not engaging in duplicative research?
    Answer: Through regular senior level interagency meetings, OSTP has 
exercised its coordination authority for critical infrastructure 
protection (CIP) research and development (R&D) over the past 5 years 
with those organizations that have R&D functions.
    Beginning in March 1998, the National Science and Technology 
Council formed a Critical Infrastructure Protection Research and 
Development Interagency Working Group (CIP R&D IWG) under the joint 
oversight of the Committee on National Security and the Committee on 
Technology. The CIP R&D IWG, led by OSTP, was established to develop 
and to sustain a coherent roadmap on technologies that, if implemented 
within critical national infrastructure sectors, would reduce 
vulnerabilities and would counter threats that could cause major damage 
to the security, economic vitality, and social well-being of the United 
States. As a result of Presidential Decision Directive 63, the IWG's 
charter was expanded to develop a process of ongoing R&D planning; and 
appraisal, as well as to provide appropriate R&D support to the 
Critical Infrastructure Coordinating Group and to the national 
coordinator.
    On October 16, 2001, Executive Order 13231 established a standing 
committee for research and, development (CR&D), chaired by OSTP, to 
coordinate a program of Federal Government R&D for protection of 
information systems for critical infrastructure, including emergency 
preparedness communications and the physical assets that support such 
systems, and to ensure coordination of government activities in this 
field with corporations, universities, federally funded research 
centers, and national laboratories.
    The CR&D created under Executive Order 13231 consists of a 
committee of principals with senior R&D leadership from across 
departments and agencies, including NSF, DoC, NSA, and DoD. Supporting 
the CR&D principals is a working level subcommittee with 
representatives designated by principals from each of the departments 
and agencies. The committee of principals meets on a quarterly basis, 
and the subcommittee meets twice monthly. OSTP utilizes CR&D as a means 
of harmonizing Federal CIP R&D with other existing Federal R&D programs 
in which overlap or similar interest may exist.
    Question 5.  The President's proposal for the Department of 
Homeland Security recommends that NIST's Computer Security Division be 
moved to the new Department's Under Secretary for Information Analysis 
and Infrastructure Protection. What would be the benefit of this 
transfer?
    Answer: The President's plan would combine the various operating 
units within the Federal Government with responsibility for cyber 
security into a single entity so that the operations and activities of 
these units can be more closely coordinated, which will serve to 
increase the efficiency and effectiveness of the Nation's critical 
infrastructure and cyber security efforts. The mission of the new 
department will require the close cooperation between the Federal 
Government, State and local government, and the private sector. There 
are aspects of computer security, which are not related to homeland 
security, that are integrated with other NIST information technology 
research and services programs. The role of NIST's Computer Security 
Division (CSD) will remain the same once moved to the DHS. The CSD will 
continue to interact with the private sector in the DHS as it has done 
within NIST. These activities will remain integrated with NIST 
programs. To the extent that computer security activities at NIST and 
at DHS intersect, it is expected that NIST will continue to collaborate 
with the CSD at the DHS on these matters.
    Question 6. Climate change is obviously of concern to this 
Committee and myself. Can you explain where this would fall under the 
re-organization of the office and who would be responsible for ensuring 
that it is properly considered in the Administration's policy 
development?
    (Answer provided jointly by Mr. Russell and Dr. Olsen).
    Answer: The Director of OSTP, Dr. John Marburger, has stated that 
climate change is a matter of high importance. He has the primary 
responsibility for addressing the issue within OSTP, and for he to 
ensure other Administration policymakers benefit from the best 
scientific data available. Reflecting this fact, Dr. Marburger serves 
as the Executive Director of the President's Committee on Climate 
Change Science and Technology Integration. Within OSTP, the Science 
division has worked at all stages of the design, development, and 
implementation of the President's climate change program announced on 
February 14, 2002. The Associate Director for Science would serve as 
the Executive Director of the Interagency Working Group on Climate 
Change Science and Technology. OSTP's Environment Department includes 
experts who provide oversight and coordination of interagency climate 
science and technology activities on an ongoing basis. Expertise on 
energy and technology matters from other parts of OSTP is also readily 
available.
    Question 7. A recent report by the National Science Foundation 
(NSF) found that the 6 States with the highest level of research and 
development expenditures--California, Michigan, New York, Texas, 
Massachusetts, and Pennsylvania--accounted for one-half the national 
effort. Members of this Committee are committed to ensuring greater 
research and development throughout the country. What are your thoughts 
about this report's findings, especially on the need to fund programs 
such as Experimental Program to Stimulate Competitive Technology 
(EPSCoT) and Experimental Program to Stimulate Competitive Research 
(EPSCoR) which were created to improve research and development in 
those States that have historically received less Federal research and 
development funding?
    Answer: The NSF report shows rather striking variation in R&D 
investment by State. It is important, however, to analyze these 
differences in the proper context. Certain differences arise from the 
size of the population and economy in a given State. Other disparities 
result from the support of Federal facilities located in various 
States. The State rankings are entirely different when the R&D 
investment is normalized by Gross State Product (GSP). California drops 
out of the list completely, and other States, such as Delaware, Rhode 
Island, New Mexico, and Idaho then appear in the top 10. The point is 
that the investment must be considered in the context of the economy 
of, and Federal facilities in, each State, rather than a simple 
distribution of dollars across the States.
    That aside, it is clear that an unequal geographic distribution of 
R&D funding may result when awards are made using the peer-review 
process. This successful process helped establish and maintain our 
Nation's worldwide science and engineering leadership. Traditional 
teaching institutions, which are engaged in transforming themselves 
into research institutions, require time to nurture new faculty and new 
facilities that can compete for peer-reviewed funding. Despite the 
popular image of a scientist or engineer toiling in isolation, 
researchers thrive on interactions with colleagues. Often a critical 
mass of researchers is required to produce an environment that fosters 
the new ideas that can win funding. An even playing field requires a 
long-term commitment on the part of the institution and a long-term 
investment in infrastructure and academic culture. I believe that 
EPSCoR is working with this ideal in mind.
    I support the goal of EPSCoR, which is to provide resources to 
States that have historically received lesser amounts of Federal R&D 
funding but have demonstrated a commitment to develop their research 
bases and improve the quality of science and engineering research 
conducted at their universities and colleges. We hope the EPSCoR 
program will, taken in the aggregate and observed, over time, result in 
sustainable science and technology infrastructure improvements at the 
State and institutional levels that significantly increase the movement 
of EPSCoR researchers into the mainstream of Federal and private sector 
R&D support.
    Question 8. The Administration is currently developing explicit 
investment criteria for decisionmakers to use for budgeting, selecting, 
and managing R&D programs. I understand that the Administration intends 
to apply these criteria to all types of R&D programs throughout the 
government in fiscal year 2004.
    (Answers provided jointly by Mr. Russell and Dr. Olsen).
    Question 8 (a). Are you concerned that the use of these criteria 
will drive program managers to invest in only applied R&D, which is 
easier to evaluate than basic R&D?
    Answer: Neither OSTP nor OMB believes that the R&D investment 
criteria, developed as part of the President's Management Agenda, will 
drive program managers to invest only in applied R&D. The criteria 
simply request that agencies explain why a research investment is 
important--either to society or to the advancement of a scientific 
field. The criteria ask that agencies explain how the allocation of 
their funds supports the best research possible. These criteria stress 
the research community's values of quality and relevance. In addition 
to these two criteria of quality and relevance, the final criterion of 
performance was added. This criterion seeks to provide additional 
guidance to the agencies on applying the requirements of the Government 
Performance and Results Act (GPRA) to their research programs. The 
investment criteria will help agencies better explain their programs.
    Throughout the criteria guidance, OSTP and OMB indicate that basic 
research should involve risk-taking and innovation, and the 
expectations of basic research outcomes should not be set to drive 
research toward less risky or ambitious efforts. In fact, in some ways, 
using the criteria, it is easier to illustrate the appropriateness of 
the Federal role in funding basic research, where there is not a clear 
economic incentive to do the research, or where the payoffs are too 
long-term or too uncertain.
    Question 8 (b). The criteria were tested as part of a pilot program 
at the Department of Energy for the FY2003 budget process. According to 
an Administration document, ``useful data on the expected benefits and 
realized performance of many projects was missing in the pilot 
project.'' What efforts have you taken to address this problem?
    Answer: OMB has held meetings with Department of Energy (DOE) staff 
to communicate expectations regarding the type and extent of data the 
Department should submit with its fiscal year 2004 request to OMB for 
its applied energy technology programs. In these meetings, OMB sought 
to understand better the Department's reporting issues, to refine and 
to clarify the data request, and to agree upon specific measures that 
DOE would take to improve the data submitted for fiscal year 2004. DOE 
is developing an electronic reporting system that will help gather the 
data in a way that will allow inquiry at both the programmatic and 
project levels. Program- and some project-level data will be provided 
to OMB as part of DOE's fiscal year 2004 budget submission.
    Question 8 (c). Were any programs canceled as a result of applying 
the criteria at DOE?
    Answer: No DOE programs were canceled as a result of using the 
applied R&D investment criteria in preparing the fiscal year 2003 
President's budget request. Resources were redirected within programs 
and between particular energy technology areas. As an example, DOE 
programs successfully helped develop high average wind speed turbines 
that are now approaching commercialization. Using data collected with 
the applied R&D investment criteria, the Administration redirected 
funds to development of power technologies that can be used in lower 
wind-speed areas. This redirection is one example of how the 
Administration intends to keep DOE applied energy technology programs 
focused on pre-competitive R&D that supports but does not compete with 
industry research and solves real national needs.

                               __________

     Response to Writen Questions Submitted by Hon. John McCain to 
                         Kathie L. Olsen, Ph.D.

    Question 1. In your statement, you have mentioned concerns about 
ensuring a balanced research portfolio. Do you feel that doubling the 
National Science foundation or any research agency at this time is a 
wise move? What type of adjustments would you make to the current R&D 
portfolio to ensure a more appropriate balance?
    Answer: I believe that we all recognize the importance that science 
and technology play in our national security, ensuring a strong 
economy, our health and well-being, and education of our citizens. For 
these reasons, I believe that we must continue to make the right 
investments in science and technology (S&T) funding, promote 
partnerships among government, academia, and industry, strengthen our 
Nation's research infrastructure, and develop education programs and 
opportunities that excite, engage, enlist, and train the next 
generation of U.S. scientists and engineers. Making the right 
investment involves reassessing research priorities and providing 
additional support for some programs, reallocating support across some 
programs, and ending other programs.
    The National Science Foundation (NSF) supports basic research and 
education across the fields of science and engineering. NSF provides 
about 20 percent of Federal support to academic institutions for basic 
research. That said, it is important for the Office of Science and 
Technology Policy (OSTP) to take the lead in coordinating a broad and 
balanced Federal research portfolio that challenges the frontiers of 
scientific knowledge, yet is based on the excellence defined by our 
robust merit-review process. More money, however, doesn't necessarily 
translate into more results or scientific or technological 
breakthroughs. Thus, it is important to prioritize our S&T investments, 
especially with respect to scientific opportunities, to maximize the 
return. We must identify and prioritize areas of science and 
engineering where we believe that our investments will have a major 
impact. We then must look to the role of the Federal agencies in the 
support of these national needs. We must continue to recognize that 
advances in multidisciplinary fields require a strong education and 
training in the basic sciences and ensure that our portfolio includes 
the sustained viability of these disciplines for our national 
priorities. We also must recognize that the advances may require 
investments in research facilities, advanced instrumentation, and 
computer modeling and capability. Finally, we need to ensure that the 
size and duration of the research awards enable the researcher to carry 
out the proposed studies. I do not believe that doubling a budget is 
the best approach to use for investing in research and development. 
Instead, we need to identify areas where we believe that the investment 
will have the greatest impact on the return of the budget, and 
rationally assess the funding needs of those areas.
    I do believe that we need to focus on the physical sciences and 
engineering to ensure both continued advances in these fields of study 
as well as training of the next generation.
    Question 2. In the past, many large-scale science projects were 
presented to Congress with cost estimates that did not reflect the 
total project costs. Will you ensure that total life cycle costs are 
presented when requesting Congressional approval of these projects?
    Answer: Large-scale science projects at the Department of Energy 
(DOE), NSF, and the National Aeronautics and Space Administration 
(NASA) vary in size, scope and duration. Many of these projects are 
one-time construction projects that not only yield new capabilities to 
do research but also provide new understanding in the process of 
constructing them. For these reasons, reserves are generally factored 
into the construction of R&D-related facilities, to address delays or 
complications that cannot be predicted. While such factors complicate 
the accurate presentation of total life cycle costs for every project, 
I believe that efforts need to be made to do this. For example, NASA 
includes the total life cycle costs for a mission when it requests 
Congressional approval of its projects. NASA missions have a clear 
start point and a clear ending point. These life cycle costs include 
project formulation, the cost of building the mission, launch costs, 
mission operations and data analysis. I believe that lessons learned at 
NASA indicate that it is essential to have both strong program and 
budget management accompanied by both quarterly reviews and independent 
cost assessments. The funding for university researchers who want to 
use the mission data is included in the data analysis costs. But even 
for NASA, once the mission has ended, the utility of the data has not. 
In this case researchers who want to use data from a multitude of 
missions that have ended compete for funds out of a separate fund not 
associated with any mission.
    Many of DOE's large-scale user facilities are designed for very 
long lifetimes. An accelerator, research reactor or synchrotron light 
source may usefully operate for more than 20 years, during which time 
multiple modifications and upgrades are made. Although additional 
improvements can be made, DOE has taken certain steps to improve its 
ability to represent the true cost of a large project to Congress. For 
example, DOE now requests project engineering design (PED) funds for 
all large projects. Rather than requesting a construction start at the 
conceptual design stage, PED funding allows designated projects to 
proceed into preliminary design (Title 1) and definitive design (Title 
II) stages before Congress is asked to fund construction activities 
(Title III).
    For DOE scientific user facilities, full instrumentation of a 
facility takes many years. DOE designs and builds its new facilities so 
that they will be the best in the world when completed. Because new 
facilities generally deliver higher power, greater collision rates, or 
greater particle fluxes when turned on, something new is always 
learned. Gradual completion of instrumentation allows for better 
optimization of instrumentation to the true capabilities of the 
facilities. However, DOE can do a better job of factoring in the costs 
of additional instruments into the total project cost. With the fiscal 
year 2003 President's request, funding is requested in the Neutron and 
X-Ray Scattering line for instruments that will be delivered to The 
Spallation Neutron Source (SNS) beginning in 2007. The SNS construction 
is scheduled for completion in 2006.
    OSTP fully recognizes that NSF faces a number of challenges 
associated with large facilities funded through its major research 
equipment and facilities construction account. OSTP will work with the 
Office of Management and Budget (OMB) to help NSF formulate and 
implement its Large Facilities Projects Management and Oversight Plan. 
OSTP, in cooperation, with OMB, will ensure that issues regarding both 
the construction and operation of large NSF facilities are addressed. I 
support OMB's efforts to reflect the true cost of large-scale projects 
to the fullest extent possible, and if confirmed, will work with OMB 
and the agencies to achieve this goal.
    Question 3. An issue of concern to this Committee is the decreasing 
number of undergraduate and graduate students pursuing degrees in 
science, mathematics, and engineering. Based on your experience, what 
can the Congress and the Federal Government do to help increase the 
number of graduates with degrees in these fields, especially among 
minorities and women?
    Answer: Throughout my career, I have been very committed to 
enhancing the careers of beginning scientists and have served on 
Federal advisory panels, task groups and have been involved in 
developing new grant programs as well as the Presidential Early Careers 
for Sciences and Engineers. I believe that more than ever, America 
needs a strong and diverse Science, Technology, Engineering and 
Mathematics (STEM) workforce. There are several parts of the STEM 
career pathway that need to be strengthened and widened in order to 
achieve this goal. (Please also see my written testimony).
    I am concerned about the state of primary and secondary math and 
science education in our schools, and want to make sure that, like 
reading, we do what is necessary to equip students with the skills they 
will need to compete in the new world economy. The latest ``Nation's 
Report Card'' on student math achievement showed that 4th- and 8th-
grade students have demonstrated continuous progress over the last 10 
years. However, 12th-grade students performed less well than they did 4 
years earlier, and the achievement gap between white students and their 
black and Hispanic peers has remained virtually unchanged since 1990. 
The President's Math and Science Partnership Initiative is a great step 
in the right direction to address these challenges, as it will bring 
together scientists and mathematicians from institutions of higher 
education with teachers and administrators from our primary and 
secondary schools to address what needs to be done to improve K-12 
mathematics and science education and increase student achievement in 
these subjects. OSTP continues to work with the National Science 
Foundation and the Department of Education to make sure that they 
coordinate their efforts in this area and together build new 
partnerships with the academic and practitioner communities.
    With regard to higher education, we are making significant efforts 
to increase the number of students, especially those from traditionally 
under-represented groups, to pursue and complete degrees in STEM 
fields. For example, NSF currently supports over $330 million in 
programs to improve undergraduate STEM education. NSF programs 
currently provide direct support to nearly 34,000 undergraduate 
students enrolled in technical colleges or baccalaureate programs. 
These efforts are spread throughout NSF's programs as part of an effort 
to encourage the integration of research and education. I believe that 
we need to work with the heads of all of the Federal science agencies 
through the National Science and Technology Council (NSTC) to enhance 
coordination of existing S&T workforce programs and planned workforce 
initiatives.
    Science & Engineering Indicators 2002 provides a broad base of 
quantitative information about U.S. science, engineering, and 
education. It reports that while approximately 25-30 percent of 
students entering colleges in the U.S. plan to major in science & 
engineering (S&E) fields, fewer than 50 percent actually complete an 
S&E degree within 5 years, and under-represented minorities drop out of 
S&E programs at a higher rate than other groups. I was alarmed by these 
statistics and believe that we need to work closely with the 
universities to identify best practices that prevent this dramatic 
drop-out rate and enhance activities to ensure the graduation of these 
STEM students, students that already have the interest and desire when 
entering college.
    In addition, I have supported and will continue to support public-
private partnership efforts to expand and diversify the STEM workforce. 
For example, to follow through on recommendations made by the 
Commission on the Advancement of Women and Minorities in Science, 
Engineering and Technology Development (P.L. 105-255), eight Federal 
agencies, including NASA, provided seed funding for a series of blue 
ribbon panel meetings convened by the Building Engineering and Science 
Talent (BEST) public-private partnership. Three separate panels on 
preK-12, higher education and workforce issues will make 
recommendations to Congress and the Administration. Based in part on 
these recommendations, I plan to challenge university, foundation and 
private sector leaders to create innovative scholarship, job training, 
internship and other programs to encourage all students, especially 
women and minorities, to pursue STEM careers.
    Question 4.  One big issue of concern to me is the effect that 
Congressional earmarks have on Federal research agencies. For example, 
in FY2002, NOAA had over two-thirds of the Department of Commerce's 
earmarks, which totaled 74 projects costing over $160 million. Based on 
your experience in Federal research agencies, could you please discuss 
the effect of earmarks on Federal research activities?
    Two recent articles (Science, vol. 293, Sept. 28 2001, p, 2364 and 
the American Association for the Advancement of Science R&D Update, 
Oct. 2, 2001, pp. 1-4) address congressional earmarking of R&D 
projects. As you are aware, last year, The Chronicle of Higher 
Education reported that $1.7 billion were directed into specific 
university projects that had not been requested, which is up 60 percent 
over 2000. While the ``directed research'' only is about 1.6 percent of 
the total R&D budget, as noted in the question, they are clearly 
concentrated in a few key agencies and programs. Mitchell Daniels, 
Director of the Office of Management and Budget, has met with academic 
and science-policy administrators to enlist their support in opposing 
the practice.
    The effect of the ``directed research'' on the programs within an 
agency can be damaging to the research at that agency. In some cases, 
existing programs or activities must be curtailed to enable sufficient 
funds to carry out the ``directed research'' projects.
    Question 5.  One issue that was raised by the Young Report last 
year which has been borne out by the recent REMAP report, is that 
requirements for scientific research have not been fully integrated 
into the plans for construction and operation of the Space Station. 
What recommendations would you have for ensuring better integration of 
research priorities into planning for future NASA projects, such as a 
mission to Mars?
    Answer: The primary purpose of the International Space Station is 
to be a world class research facility and we are still in the process 
of building that facility. As the REMAP Task force stated, ``NASA has a 
stake in some of the biggest intellectual problems in science . . . 
[and the] Space Station provides a unique environment for attacking 
these problems.'' Science remains the central focus of the Space 
Station program, and meaningful science is already being done onboard 
the Space Station. Perhaps the greatest value of the Station will be in 
its versatility--it is not a single discipline laboratory, but instead 
offers long-term, continuous access to the space environment with 
skilled human operators onsite.
    From my experiences, the recommendation that I would have for 
ensuring better integration of research priorities into planning for 
future NASA projects is to ensure scientists have a voice, from the 
beginning to the end of the program and also serve as equal partners in 
all decisions regarding the project.
    Question 6.  Climate change is obviously of concern to this 
Committee and thyself. Can you explain where this would fall under the 
re-organization of the office and who would be responsible for ensuring 
that it is properly considered in the Administration's policy 
development?
    Answer: (Answer provided jointly by Dr. Olsen and Mr. Russell). The 
Director of OSTP, Dr. John Marburger, has stated that climate change is 
a matter of high importance. He has the primary responsibility for 
addressing the issue. Reflecting this fact, Dr. Marburger serves as the 
Executive Director of the President's Committee on Climate Change 
Science and Technology Integration. Within OSTP, the Science Division 
has worked at all stages of the design, development, and implementation 
of the President's climate change program announced on February 14, 
2002. The Associate Director for Science would serve as the Executive 
Director of the Interagency Working Group on Climate Change Science and 
Technology. OSTP staffing is provided primarily from its Environment 
Department. Expertise on energy and technology matters from other parts 
of OSTP is readily available. Moreover, the Associate Director for 
Science will co-chair the National Science and Technology Council 
Committee on Environment and Natural Resources.
    The issue of climate change provides a useful illustration of how 
OSTP's re-organization allows for the use of a multi-discipline 
response to complex issues that cut across traditional organizational 
boundaries.
    Question 7. A recent report by the National Science Foundation 
(NSF) found that the 6 States with the highest level of research and 
development expenditures--California, Michigan, New York, Texas, 
Massachusetts, and Pennsylvania--accounted for one-half the national 
effort. Members of this Committee are committed to ensuring greater 
research and development throughout the country. What are your thoughts 
about this report's findings, especially on the need to fund programs 
such as Experimental Program to Stimulate Competitive Technology 
(EPSCoT) and Experimental Program to Stimulate Competitive Research 
(EPSCoR) which were created to improve research and development in 
those States that have historically received less Federal research and 
development funding?
    Answer: Given the importance of research acid development to this 
Nation, I believe that we must have a strong science and technology 
research and education base across the States. Following the 
implementation of EPSCoR at NSF, other Federal agencies have 
established similar programs consistent with their missions. In some 
cases, the eligible States in these programs differ from those in the 
EPSCoR program at NSF. If I were confirmed, I would like to use the 
NSTC Committee on Science to form a working group to re-assess the 
program across agencies to identify best practices for success.
    I strongly support the goal of EPSCoR, which is to provide 
resources to States that have historically received lesser amounts of 
Federal R&D funding but have demonstrated a commitment to develop their 
research bases and improve the quality of science and engineering 
research conducted at their universities and colleges. We hope the 
EPSCoR program will, taken in the aggregate and observed over time, 
result in sustainable S&T infrastructure improvements at the State and 
institutional levels that significantly increase the movement of EPSCoR 
researchers into the mainstream of Federal and private sector R&D 
support.
    Question 8.  The Administration is currently developing explicit 
investment criteria for decisionmakers to use for budgeting, selecting, 
and managing R&D programs. I understand that the Administration intends 
to apply these criteria to all types of R&D programs throughout the 
government in fiscal year 2004.
    (Answers provided jointly by Dr. Olsen and Mr. Russell).
    Question 8 (a). Are you concerned that the use of these criteria 
will drive program managers to invest in only applied R&D, which is 
easier to evaluate than basic R&D?
    Answer: Neither OSTP nor OMB believes that the R&D investment 
criteria, developed as part of the president's Management Agenda, will 
drive program managers to invest only in applied R&D. The criteria 
simply request that agencies explain why a research investment is 
important--either to society or to the advancement of a scientific 
field. The criteria ask that agencies explain how the allocation of 
their funds supports the best research possible. These criteria stress 
the research community's values of quality and relevance. In addition 
to these two criteria of quality and relevance, the final criterion of 
performance was added. This criterion seeks to provide additional 
guidance to the agencies on applying the requirements of the Government 
Performance and Results Act (GPRA) to their research programs. The 
investment criteria will help agencies better explain their programs.
    Throughout the criteria guidance, OSTP and OMB indicate that basic 
research should involve risk-taking and innovation, and the 
expectations of basic research outcomes should not be set to drive 
research toward less risky or ambitious efforts. In fact, in some ways, 
using the criteria, it is easier to illustrate the appropriateness of 
the Federal role in funding basic research, where there is not a clear 
economic incentive to do the research, or where the payoffs are too 
long-term or too uncertain.
    Question 8 (b). The criteria were tested as part of a pilot program 
at the Department of Energy for the FY2003 budget process. According to 
an Administration document, ``useful data on the expected benefits and 
realized performance of many projects was missing in the pilot 
project.'' Wbat efforts have you taken to address this problem?
    Answer: OMB has held meetings with DOE staff to communicate 
expectations regarding The type and extent of data the Department 
should submit with its fiscal year 2004 request to OMB for its applied 
energy technology programs. In these meetings, OMB sought to understand 
better the Department's reporting issues, to refine and to clarify the 
data request, and to agree upon specific measures that DOE would take 
to improve the data submitted for fiscal year 2004. DOE is developing 
an electronic reporting system that will help gather the data in a way 
that will allow inquiry at both the programmatic and project levels. 
Program- and some project-level data will be provided to OMB as part of 
DOE's fiscal year 2004 budget submission.
    Question 8 (c). Were any programs canceled as a result of applying 
the criteria at DOE?
    Answer: No DOE programs were canceled as a result of using the 
applied R&D investment criteria in preparing the fiscal year 2003 
President's budget request. Resources were redirected within programs 
and between particular energy technology areas. As an example, DOE 
programs successfully helped develop high average wind speed turbines 
that are now approaching commercialization. Using data collected with 
the applied R&D investment criteria, the Administration redirected 
funds to development of power technologies that can be used in lower 
wind-speed areas. This redirection is one example of how the 
Administration intends to keep DOE applied energy technology programs 
focused on pre-competitive R&D that supports but does not compete with 
industry research and solves real national needs.

                               __________

     Response to Written Questions Submitted by Hon. Ron Wyden to 
                         Kathie L. Olsen, Ph.D.

    Thank you for scheduling and chairing the confirmation hearing last 
Thursday. I, too, share your view that climate change is a critically 
important scientific issue that I believe will remain on of our 
Nation's top priorities. I also very much appreciate the opportunity to 
provide a written response to your excellent question:
    Question 1. As a scientist, could you explain how the 
Administration's policy on reducing greenhouse gas intensity which the 
head of the Council on Environmental Quality admitted will allow U.S. 
emissions to rise will help this Nation address climate change in a 
meaningful way?
    Answer: The President's greenhouse gas intensity target will 
address climate change in a meaningful way in two respects. First, it 
will achieve substantial reductions in future emissions compared to 
what would otherwise occur. Second, the target will help ensure the 
economy can grow, which is necessary not only for our Nation's overall 
well-being but also to spur innovation in new technologies that will 
enable us to achieve longer term climate objectives. I would like to 
elaborate on these two points.
    First, the measure of greenhouse gas intensity is the ratio of the 
amount of greenhouse gas emitted per dollar of Gross Domestic Product 
(GDP). Intensity is a measure of the efficiency of our economy as it 
relates to producing greenhouse gases. Setting an intensity target 
rather than an absolute emissions cap allows the Nation to meet its 
goal of economic growth while reducing emissions from levels that would 
otherwise occur. The President has set a goal of reducing the 
greenhouse gas intensity by 18 percent, which is nearly 30 percent 
lower than current baseline projections.
    The second point concerns economic growth. You are correct in your 
statement that if our economy grows, emissions will increase under this 
policy. Unfortunately, greenhouse gas emissions historically have been 
linked to the size of our economy. Given the uncertainty in the 
science, it is prudent to try to reduce emissions without reducing 
economic growth. The Administration's intensity reduction goal is the 
first step in a policy that will first slow, and if the science 
justifies, stop and reverse growth in greenhouse gas emissions. An 
intensity target creates incentives for technological innovation and 
investment into long term approaches, while allowing the economic 
vitality that feeds technological innovation. By achieving real 
reductions relative to the baseline and by preserving economic growth, 
the Administration's greenhouse gas intensity target will address 
climate change in a meaningful way.
    It is my belief that OSTP's role is to ensure that the best science 
is supported. With respect to climate change, I believe we need to 
target science that will reduce uncertainty and advance current 
knowledge and understanding of climate systems. As Chief Scientist at 
NASA, I have regularly utilized the outstanding reports prepared by the 
National Research Council of the National Academy of Sciences for 
knowledge, advice and direction. In advising the President on 
scientific matters, OSTP also relies on the best science available. In 
my opinion, the best science review that we have available at this time 
on climate change is contained in the National Academy's Report 
``Climate Change Science: An Analysis of Some Key Questions.''
    If confirmed, I look forward to working with OSTP, other Federal 
agencies, as well as you and other interested members of the Committee 
and Congress in ensuring our climate policies benefit from sound 
science.
  

                                  <all>

</pre></body></html>
